Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




State 	 Pharmacy Boards’ Oversight of
        Patient Counsebng Laws




                    JUNE GIBBS BROWN
                    Inspector General

                         August 1997
                       OEI-01-97-00040
                       OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, evaluations, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.




                OFFICE OF EVALUATION AND INSPECTIONS

The OIG’s Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department, the
Congress, and the public. The inspection reports provide findings and recommendations on the
efficiency, vulnerability, and effectiveness of departmental programs.

OEI’s Boston Regional Office prepared this report under the direction of Mark R. Yessian, Ph.D.,
Regional Inspector General. Principal OEI staff included:

Boston Region                                                  Headauarters
Kenneth Price                                                  Jennifer Antic0
                                                               Elise Stein

To obtain a copy of this report, contact the Boston Regional Office by telephone at
(617) 5651050 or by fax at (617) 565-3751.
Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




State 	 Pharmacy Boards’ Oversight of
        Patient Counseling Laws




                    JUNE GIBBS BROWN
                    Inspector General

                         August 1997
                       OEI-01-97-00040
             EXECUTIVE                            SUMMARY

PURPOSE

To assess State pharmacy boards’ oversight of State patient counseling laws.

BACKGROUND

-ICATION         AS A NATIONAL PROBLEM 


Adverse drug reactions associated with the misuse of prescription drugs are widespread.
They reduce the quality of health care received by millions of people. They also add as
much as $100 billion a year to health care costs.

Pharmacists can help address this problem--by serving as a last line of defense to identify
and correct prescription errors and by providing patients with oral and written information
to improve their understanding and use of prescription drugs. This patient education role
has been of longstanding interest to The Food and Drug Administration (FDA) and is
central to a public-private prescription information program recently approved by the
Secretary of the Department of Health and Human Services (HHS).

STATE PATIENT COUNSELING LAWS HAVE QUESTIONABLE EFFECTS 


In 1990, Congress required that pharmacists offer to counsel Medicaid beneficiaries who
present prescriptions and that States establish counseling standards. Nearly all States
responded by passing patient counseling laws that extend to all patients, not just Medicaid
beneficiaries. They look to State pharmacy boards to oversee compliance with the laws.

Recent survey results suggest that the offer to counsel often is not extended. Worse yet,
investigations conducted by “shoppers” pretending to be patients reveal that pharmacists
often fail to warn patients about drug interactions that could be harmful or even fatal.
Our inquiry, based primarily on a survey of State pharmacy boards, focuses on the
performance of the boards in ensuring compliance with patient counseling laws.

FINDINGS

Statephamtacy boards have played an active role in explaining and urging pharmacist
compliance withStatepatient counseling laws.

During the past year, 38 of 46 responding boards conducted educational efforts directed to
pharmacists.

The boards have carried out three major types of educational activities. They include: (1)
the distribution of newsletters, (2) the presentation of information at professional
association meetings, and (3) the provision of information during inspection visits.


                                              1
However, the boards’ enforcement of the counseling laws has been minimal.

They have made little use of “shopping” visits, whereby board representatives pose as
patients to assess compliance with counseling requirements. In the past year, only 17 of
46 responding boards made such visits. Generally, they were made only to pharmacies
against which a complaint had been lodged.

They have relied on inspection visits as the major means of enforcement. Such visits are
conducted with widely varying degrees of frequency. At best they offer limited
opportunities for assessing the extent and adequacy of counseling.

They have taken few final, formal disciplinary actions involving violations of patient
counseling laws. Of the 354 actions taken during the past year by 23 reporting boards,
208 (59 percent) were in just 3 States.

The boards identified major obstaclesto the successful implementationof patient
counseling ikws.

       ECONOMICS OFPHARMACY         PRACTICE. About three-fourths of the boards 

       noted as a major obstacle the limited reimbursement for counseling 

       services; about one-half noted the lack of pharmacy owners’ commitment to 

       counseling. Workload pressures on pharmacists often too great to allow for 

       routine counseling. 


       IJMITED PATIENT DEMAND.         About 60 percent of the boards underscored 

       the lack of patient knowledge about the patient counseling requirements. 

       Patients often reluctant to spend the additional time counseling would 

       require. 


       LACK OF RESOURCESFOR ENFORCEMENT.             Cited by close to one-half of 

       the boards as a major obstacle. Insufficient staff support, especially for 

       labor intensive “shopping” investigations. Complaints about having 

       responsibility for enforcing Federal Medicaid counseling requirements 

       without additional funding. 


RECOMMENDATIONS

The HHS Secretary and the FDA are committed to a public-private prescription
information program that by the year 2000 will result in at least 75 percent of the
individuals receiving new prescriptions being given useful patient written information.
The Health Care Financing Administration (HCFA) is committed to Federal-State efforts
that will result in full adherence to Medicaid patient counseling requirements.

Pharmacy boards, through their oversight efforts, have a vital role in ensuring that
progress is made in providing individuals with useful written and oral information. Our
review indicates that there is much room for progress in State oversight efforts and that


                                             11
major obstacles impede the integration of counseling into pharmacy practice. We offer
two sets of recommendations intended to address this situation--one to FDA, the other to
HCFA.

The FDA should collaboratewithStatepharmacy boards to collect survey data on the
usefulness of writteninformation offered to patients receiving new prescriptions.

Pharmacy boards, in concert with FDA, could conduct “shopping” efforts to a sample of
pharmacies to determine the extent and type of information being offered to patients. A
joint effort of this kind would help FDA carry out its responsibility to measure progress
being made in offering “useful” written information to patients. At the same time, it
would facilitate State board oversight of counseling law provisions governing the provision
of both oral and written information.

The HCFA shouldfacilitate State efforts to enforce the Medicaid patient counseling
mandate.

Working in partnership with the States and the above-noted HHS agencies, HCFA could
take the following initiatives:

       DEVELOP AND ASSESS STATE PROGRESS TOWARD A PATIENT COUNSELJNG
       PERFORMANCE OFUECTIVE. This objective could resemble the year 2~
       objective noted above. The States’ annual drug utilization review reports
       could reflect progress made in meeting it.

       DEVELOP GUIDELINES ON STATE OVERSIGHT OF THE FEDERAL PATIENT
       COUNSELING MANDATE. Such guidelines, incorporating best practices
       currently being carried out by the States, could help State boards in
       developing cost-effective enforcement approaches.

COMMENTS ON THE DRAFT REPORT

Within the Department, we solicited and received comments on the draft report from
FDA, HCFA, the Health Resources and Services Administration (HRSA), and the
Assistant Secretary for Planning and Evaluation (ASPE). From external organizations, we
requested and received comments from the National Association of Boards of Pharmacy,
the Citizens’ Advocacy Center, Public Citizen’s Health Research Group, the American
Pharmaceutical Association, the National Association of Chain Drug Stores, the National
Community Pharmacists Association, and the American Society of Health-System
Pharmacists. We include the complete text of comments in appendix C. Below we
summarize the major thrust of the comments on our recommendations and, in italics, offer
our responses. We made a number of minor edits in the report in response to comments.




                                             .. .
                                             111
FDA, HCF’A,HRSA, AND ASPE COMMENTS 


The FDA, HCFA, and ASPE concurred with our recommendations. In our drafi report,
we suggested that one initiativethatHCFA could take infacilitatingState efforts to
enforce the Medicaidpatient counseling mandatewouldbe to “facilitatethe convening of a
nationalsymposiumon oral counseling by pharmacists.n In thisfinal report, we have
eliminatedthatsuggestion because pharmacy associationshave decided to sponsor such a
symposiumin September 1997. We stillsuggest, however, thatHCFA pay careful
attentionto the issues raised in the symposiumand that it exert leadership in examining
and even showcasingconstructivewaysof addressing the major obstacles to patient
counseling thatwe ident@ed in this report.

The HRSA did not comment specifically on the recommendations, but it noted that the
draft report made it appear that it was the responsibility of the State pharmacy boards to
enforce the Federal Medicaid patient counseling requirement. We modifiedthe
introductorytext to clan3 thatStatestypicallyhave relied upon the boards as the
enforcement armfor both Federal and Statecounseling laws.

EXTERNAL ORGANIZATIONS’ COMMENTS 


These comments serve as an important complement to our report. They add useful
perspective, especially with respect to the obstacles to patient counseling. The
associations tend to emphasize the need for Federal initiatives to address these obstacles
(especially with respect to the economics of pharmacy practice) while more generally
expressing their concern about any broadening of the Federal role. The consumer-based
organizations call for stronger Federal action in ensuring that patients are adequately
informed. We are sensitiveto the scope of the obstacles inhibitingoral counseling by
pharmacistsand to the primary role of Stategovernmentin enforcing existing counseling
laws. At the same time, we must reemphasizethatour survey reveals that the enforcement
of Federal and Stateoral counseling lawshas been minimal. It is vital, we believe, for
both levels of governmentto give greater attentionto the implementationof these laws and
to suppon “shopping”and other techniquestowardthat end.




                                             iv
                   TABLE                  OF        CONTENTS

                                                                                                    PAGE 


EXECUTIVESUMMARY 


INTRODUCTION          ........................................... 


FINDINGS     . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...4 


    Boards Active in Conducting Educational Outreach . . . . . . . . . . . . . . . . . . . . 4 


    Boards’ Enforcement of Counseling Laws is Minimal                 . . . . . . . . . . . . . . . . . . 5


    Boards Identify Major Obstacles to Patient Counseling Laws . . . . . . . . . . . . . . 6 


RECOMMENDATIONS                ......................................g 


CO~~MENTS~N~EDRAFTREPORT                               ..,......................                          10 


APPENDICES 


A: Survey of State Pharmacy Boards .............................                                         A-l 

B: The MedGuide Effort ....................................                                             .B-1 

C: Complete Comments on the Draft Report .........................                                       C-l
D: Endnotes ............................................                                                 D-l
                          INTRODUCTION 



PURPOSE

To assess State pharmacy boards’ oversight of State patient counseling laws.

BACKGROUND

Mismedication as a National Problem

Mismedication is a major national problem. It contributes to adverse drug reactions that
severely impact the quality of health care received by millions of persons, particularly the
elderly.’ It also adds greatly to health care costs. Costs associated with the waste in
misused drugs and the results of not receiving intended therapy have been estimated to
account for as much as $100 billion a ~ear.~

Patient failure to comply with a prescribed drug regimen is one factor responsible for this
problem. Studies have shown that noncompliance rates average between 30 and 50
percent.3 But there are also other important contributing factors, such as the inadequate
prescribing and dispensing of drugs.4

Pharmacists as Counselors

In hospitals and nursing homes, pharmacists, working collaboratively with physicians, 

have long played important clinical roles. In community pharmacies, the barriers to such 

roles have been imposing and the practice of clinical pharmacy has been less 

pronounced.’ But with the advances in computer technology and software, community 

pharmacists have ready access to drug product information that can be helpful to patients. 

In many cases, they also have access to patient profile information that can help guide 

pharmacist counseling of patients. 


Thus, pharmacists are in a key position to help address the mismedication problem noted 

above. In one sense, they can serve as a last line of defense, to identify and correct any 

prescription errors at the point of dispensing. In another, they can act in a proactive 

manner as a part of the patient care team to foster better patient understanding and use of 

prescription drugs. 6 Such a role is in accord with the Food and Drug Administration’s 

longstanding efforts to increase patient information about prescription drugs. It is also in 

accord with the prescription information action plan recently developed by a broadly based 

task force and approved by the Department of Health and Human Services (see appendix 

A). 

State Patient Counseling Laws

In 1990, Congress underscored the counseling role of pharmacists by including it as one
of the components of the Drug Utilization Review requirements it incorporated into the
Medicaid program. It stipulated that pharmacists must offer to counsel each Medicaid
beneficiary who presents a prescription and that State governments must establish
standards for the counseling of these individuals.7

Nearly all States responded by enacting
patient counseling laws that applied not           STATE PATIENT            COUNSELING            LAWS
only to Medicaid beneficiaries, but to all
                                                                                                         States
consumers. The scope of the laws is
                                              Delivery
limited. For instance, in most States an       Offer must be made verbally                               17
offer to counsel can be extended in a          Counseling, when performed, must
written form handed to the patient by a         be face-to-face by pharmacist                            46
pharmacy technician. Nevertheless, the        Scope
                                               Inclusive of all ambulatory patients                      42
laws have served to heighten the
                                               Inclusive of refills                                      17
professional roles and responsibilities of    Content
community pharmacists. The States              Mandate patient profiles                                  43
typically have given the responsibility of     Mandate minimum set of information                         9
enforcing the laws to State Boards of         Source: Derived from information compikd by the National
Pharmacy, the entities responsible for        Associatioo of Boards of F’hannacy, 1996.

licensing and, where necessary,
disciplining pharmacists.

Questionable Effects of the Laws

The actual effects of the laws in fostering useful patient counseling remains questionable.
For instance, a July 1994 survey conducted by the National Association of Boards of
Pharmacy indicated that patients reported offers to counsel only 38 percent of the time.8
Another survey conducted at about the same time by the New York City Office of the
Public Advocate found that only 42 percent of independent community pharmacists and 27
percent of chain pharmacists extended offers to counsel.9

One of the most troubling and widely publicized signs that the laws may not be having the
intended effect was provided in August 1996 in a national news magazine under a cover
story entitled: “Danger at the Drugstore: Pharmacists are your last defense against risky
drug interactions. Too many are blowing it.“l’ The story was based on the efforts of
reporters who posed as consumers seeking to fill combinations of prescriptions which
would be dangerous or even deadly if taken together. In the 245 pharmacies visited in 7
cities, more than one-half of the pharmacists failed to warn the reporters/consumers of the
risks associated with mixing the drugs. A similar study conducted earlier in the District
of Columbia by researchers at Georgetown University Medical Center found that more
than 30 percent of the pharmacists filled the prescriptions without any warning.”



                                             2

This Inquiry

This inquiry focuses on the role of State pharmacy boards in overseeing compliance with
State patient counseling laws. It is based on the premise that effective oversight can help
foster the intent of the laws. It sets forth the extent and nature of the boards’ educational
and enforcement efforts, and closes with a review of what board officials regard as major
obstacles to successful implementation of the laws.

The information we present comes from three sources. The primary source is a survey
we conducted of all State pharmacy boards in the country. We administered the survey
from November 1996 through January 1997. We sent questionnaires to 51 boardsI and
received responses from 46 of them, representing a response rate of 90 percent. (The
survey results appear in appendix A). I3 The second source is telephone interviews with
board officials in 12 to 15 States. Typically, we initiated these interviews to obtain some
elaboration on information provided on a returned questionnaire. Finally, mainly for
context, we draw on a review of pertinent reports and literature concerning patient
counseling by pharmacists and concerning problems associated with misuse of prescription
drugs.

We conducted this inspection in accordance with the Quality Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.




                                               3

                                  FINDINGS 



State pharmacy boards have played an active role in explaining and urging
pharmacist compliance with State patient counseling laws.

  b	   During the past year, 38 of 46 responding boards (83 percent) have conducted
       educational efforts intended to help pharmacists understand or carry out the laws.

  b	   Among these 38 boards, 28 have carried out three or more different types of
       educational efforts. Typically, they have involved the preparation and distribution
       of newsletters and other written materials, the presentation of information at
       professional association meetings, and the provision of information during
       pharmacy inspection visits.

This educational thrust of the boards is most apparent in the newsletters which they
typically send to all pharmacists in their States. Through these newsletters they explain
the key elements of the counseling law and remind pharmacists of the importance of
counseling and how they might overcome some of the barriers associated with it. A
particularly notable example of such educational outreach was an issue of the California
board’s newsletter. Drawing on information from the California Pharmacists Association
and the California Society of Health System Pharmacists, it spelled out how pharmacists
in seven different settings “have implemented pharmaceutical care by emphasizing patient
counseling and pain management. ”l4

Through appearances at professional association meetings, the boards get out the same
message in a more personal way, with opportunity for give and take. The Texas board
was particularly active in this regard, having made during the past year 29 presentations
that reached 4,000 pharmacists. The Virginia board held four public forums that
addressed how pharmacists’ workloads affect their ability to comply with counseling
requirements and to prevent dispensing errors. The Arizona board developed and
provided for continuing education credit at professional meetings a live 2 to 3 hour
program specifically aimed at preventing dispensing errors through patient counseling.”

Even more personal and direct are the face-to-face exchanges that pharmacy inspectors
and pharmacists engage in during the course of board inspections of individual
pharmacies.16 During these inspections, boards are primarily focused on compliance, but
at least with respect to the counseling law they also tend to be attentive to the educational
opportunity afforded by their visit. They reinforce the intent of the counseling law,
answer questions concerning it, and sometimes leave informational materials.

In contrast to the above efforts directed to pharmacists, boards have devoted much less
attention to educating patients about the counseling laws. Of 46 responding boards, only
11 (24 percent) undertook any such initiatives during the past year.17 However, some
notable efforts have been made and more are being developed. The New York, Texas


                                              4
and California boards have prepared information brochures directed to consumers. The
Nevada board produced a series of public service announcements. The Louisiana, Ohio,
and other boards are preparing informational postings on the Internet. And the
Massachusetts board, at this writing, is preparing a guideline that will require all
pharmacies to post a sign informing consumers of their right to counseling.

The boards’ enforcement of the counseling laws has been minimal.

  b	   They have made little use of “shopping” visits, whereby representatives of
       pharmacy boards pose as patients to assess compliance with counseling
       requirements. During the past year, only 17 of 46 responding boards (37 percent)
       made such visits--generally only to pharmacies against which a complaint had been
       lodged.

Shopping visits to pharmacies are an excellent enforcement tool to determine if and how
well pharmacists are counseling patients. The Georgetown Medical School, as we noted
earlier, used this approach to help draw attention to the fact that pharmacists often do not
provide a sufficient front line of protection for patients. The pharmacy boards, however,
make little use of this mechanism. Most do not use it at all; most of the others, do so
sparingly. In a few cases, legal concerns about entrapment seem to inhibit its use. Much
more often, the limited resources available to the board serve as the restraint. Shopping is
a labor-intensive activity that can be quite costly if used on other than a highly selective
basis. la

Thus, even among the 17 boards citing some recent experience with shopping, only a few
have used the technique in a proactive manner, randomly visiting pharmacies in the State.
And even in those cases, relatively few pharmacies were visited.” Shopping, to the
limited extent it is practiced by the boards, is used essentially as a tool of investigation of
pharmacies that are the focus of special concern.2o

   b 	 Boards have relied on inspection visits as the primary means of enforcing patient
       counseling laws. Such visits are conducted with widely varying degrees of
       frequency among the states and even at best offer limited opportunities for
       assessing the extent and adequacy of counseling.

During these visits, inspectors must examine many different elements associated with the
practice of pharmacy. 21 They include, among other things, the adequacy of the facility
itself, of the records and record-keeping procedures, of the prescription drug inventory, of
the compounding practices, and of interactions with patients. The latter involves some
tangible elements that can be examined, such as the physical area set aside for counseling
or the type of written material distributed. But the dynamics of offering to counsel and
then actually counseling are much less conducive to assessment. Pharmacy inspections are
usually unannounced, but we are told that once the inspectors appear on site, pharmacy
staff tend to be well aware of their presence. Accordingly, one board official noted:
“Some of the best counseling in our State goes on when the inspectors are around.”



                                               5

How often the inspectors are around in any particular pharmacy varies greatly from State-
to-State. Among 46 reporting boards, 8 (all among the least populated States) indicated
that during the past year they had conducted site visits to all of the pharmacies in their
State. On the other hand, 7 reported conducting no such visits and 8 (most among the
most heavily populated States) reported visits to less than 50 percent of the pharmacies.

   b 	 They have taken few final, formal disciplinary actions involving violations of
       patient counseling laws. Of the 354 actions taken during the past year by 23
       reporting boards, 208 (59 percent) were in just 3 States.

Pharmacy board officials, as we will note below, recognize the substantial constraints that 

limit the potential effectiveness of the patient counseling laws. Some also appear to 

believe that too punitive an approach to enforcement could be counterproductive. 

Whatever the rationales, the data we collected indicate that in most States the boards have 

taken few if any final, formal disciplinary actions against pharmacists for reasons that 

relate at least in part to violations of patient counseling laws. Further, of the actions 

taken, only a small percent have involved anything other than a fine or reprimand. 


A number of boards note that while they invoke few if any formal disciplinary actions that 

concern counseling, they do take informal actions, which serve as warnings to pharmacists 

who they found were not sufficiently attentive to patient counseling. Such warnings, 

board officials note, can be an effective way of reminding the pharmacists and the 

pharmacy managers of the intent of these laws. 


The Boards identified major obstacles to the successful implementation of patient
counseling laws.

Economics of Pharmacy Practice. The most significant obstacles, according to the
boards, is the economic reality of pharmacy practice in environments where payers are
squeezing operating margins and pharmacies are consolidating, often as part of large
national chains. Thus, about three-fourths of 44 responding boards cited as a major
obstacle the limited reimbursement for counseling services and about one-half of 45
boards - the lack of owners’ commitment to counseling.22 Making a point reiterated by
many of his colleagues in other States, one board official said: “Staffing in corporate
pharmacies is simply insufficient to allow routine counseling. ” The workload pressures on
individual pharmacists are simply too great.23

Limited Patient Demand. The demand side, boards emphasized, must not be overlooked.
About 60 percent of 45 responding boards underscored that a major obstacle was a lack of
patient knowledge about the counseling requirement; about one-half stressed the lack of a
suitable physical area for counseling as a major impediment.

In their comments to us, boards surfaced two other, perhaps more basic factors inhibiting
patient demand. One is that many patients tend to overlook the vital importance of drug
information and just assume that their physicians and pharmacists will not allow anything
bad to happen to them. Another related factor is that patients do not want to spend the


                                              6
extra time that counseling entails. “The entire counseling process,” said one board
official, “is new and not within what most patients consider ‘traditional practice.’ Even
when asked, they will refuse. “~4 Of course, the relatively limited educational outreach
efforts of boards (and other entities) do little to change this patient perspective.

Lack of Resources for Enforcement. Finally, boards stressed that insufficient resources
are a major factor impeding their enforcement of patient counseling efforts. Close to one-
half of 45 responding boards identified it as a major obstacle.25 They stress that they
have insufficient staff to engage in the long and tedious process of identifying those
pharmacists and pharmacies that are not complying with the counseling laws and, where
necessary, accumulating enough evidence to serve as the basis for disciplinary action.

One particularly irksome concern to some boards is that without any additional funding
they are expected by the State Medicaid agency to serve as the chief entity responsible for
enforcing the Federal counseling requirement directed to Medicaid beneficiaries. Boards
note that while the Medicaid agency gets Federal reimbursement for a share of their costs,
none of that reimbursement gets passed on to them.

On the other hand, a few officials noted developments that may contribute to increased
interest attention to counseling, One is the acceleration of automation efforts that can free
up more pharmacist time for counseling. Another is the threat imposed by large
malpractice settlements in cases involving drug dispensing errors.26




                                              7

                    RECOMMENDATIONS 



There is a substantial Federal interest in effective implementation and enforcement of
patient counseling laws. The HHS Secretary and the FDA are committed to public-private
efforts that will result by the year 2000 in at least 75 percent of the individuals receiving
new prescriptions being given useful written information.” The HCFA is committed to
Federal-State efforts that will result in fulfilling the intent of the Medicaid patient
counseling requirements established by Congress.

At the State level, the pharmacy boards serve as the main body responsible for overseeing
pharmacists’ compliance with the Federal and State patient counseling laws. Our review
indicates that there is much room for improvement in State oversight efforts and that there
are major obstacles to the full-fledged integration of patient counseling into pharmacy
practice. We offer two sets of recommendations intended to help address this situation.
One is directed to the FDA; the other to HCFA. They follow:

The FDA should collaboratewithStatepharmacy boards to collect survey d&a on the
usefulness of writteninformation offered to individualsreceiving new prescriptions.

The FDA is completing a survey assessing the extent to which patients are being given
written information when receiving new prescriptions. To assess the “usefulness” of the
information being offered, it will be conducting another survey. This survey effort offers
a prime opportunity for the FDA and pharmacy boards to work collaboratively to foster
mutual interests in patient counseling.

In particular, we suggest that a number of boards, working in concert with FDA, conduct
“shopping” efforts to a sample of pharmacies to determine the extent and type of
counseling being offered to patients. In conducting these visits, the boards could obtain
information that would help them ensure compliance with their States’ own patient
counseling laws and at the same time collect and send to FDA the written information that
pharmacists provided to the “shopper. ” The FDA could then assess the usefulness of this
information in accord with the criteria established in the prescription information action
plan approved by the HHS Secretary (see appendix B).

The prospects for a successful cooperative effort of this kind would appear to be good.
Pharmacy boards have already been working with FDA in helping to enforce FDA
regulations. Moreover, many board officials have been commissioned by FDA. This
entitles them with access to communications and information that would otherwise be
considered confidential.




                                               8

The HCFA should facilitate State effoortsto enforce the Medicaidpatient counseling
mandate.

The lead role in carrying out this mandate is with the States. But given the partnership
nature of the Medicaid program, HCFA, the above-noted HHS agencies, and the State
governments (including State Medicaid agencies and State pharmacy boards or their
national federation) should work together cooperatively in fostering their common interest
in patient counseling. Toward that end, we suggest two initiatives which HCFA could
undertake:

Develop and assess Stateprogress towarda patient counseling petionnance objective.
Ideally, this objective would closely parallel the performance objective which the 

Secretary has already endorsed calling for 75 percent of patients by the year 2ooO to 

receive useful written information and which the FDA is monitoring. (Given the nature of 

the Federal mandate, however, it probably should address oral as well as written 

information.) The HCFA could amend its Drug Utilization Review annual report 

instructions to State Medicaid agencies to require State updates, based on survey data, of 

progress being made in meeting the objective. At present, those instructions are much 

more general. 


Develop guidelines on State oversight of the Federal patient counseling mandate. The 

authorizing statute calls upon the States to develop standards for counseling individuals. 

Federal guidelines governing how States ensure enforcement of the standards could 

facilitate State progress in meeting them. If based on input from and best practices 

currently being carried out by the States, these guidelines could be of considerable value 

to State pharmacy boards as they consider how to carry out their enforcement efforts in 

the most cost-effective manner possible. 





                                              9

 COMMENTS                      ON       THE         DRAFT              REPORT 



Within the Department, we solicited and received comments on the draft report from
FDA, HCFA, the Health Resources and Services Administration (HRSA), and the
Assistant Secretary for Planning and Evaluation (ASPE). From external organizations, we
requested and received comments from the National Association of Boards of Pharmacy,
the Citizens’ Advocacy Center, Public Citizen’s Health Research Group, the American
Pharmaceutical Association, the National Association of Chain Drug Stores, the National
Community Pharmacists Association, and the American Society of Health-System
Pharmacists. We include the complete text of comments in appendix B. Below we
summarize the major thrust of the comments on our recommendations and, in italics, offer
our responses. We made a number of minor edits in the report in response to the
comments.

FDA, HCFA, HRSA, AND ASPE COMMENTS

The FDA, HCFA, and ASPE concurred with our recommendations. In our dra@report,
we suggested that one initiativethatHCFA could take infacilitatingState eflorts to
enforce the Medicaidpatient counseling mandatewouldbe to “facilitatethe convening of a
nationalsymposiumon oral counseling by pharmacists.n In thisfinal report, we have
eliminatedthatsuggestion because pharmacy associationshave decided to sponsor such a
symposiumin September 1997. We stillsuggest, however, thatHCFA pay care@1
attentionto the issues raised in the symposiumand that it exert leadership in examining
and even showcasingconstructivewaysof addressing the major obstacles to patient
counseling that we ident$ed in this report.28

 The HRSA did not comment specifically on the recommendations, but it did note that the
 draft report made it appear that it was the responsibility of State pharmacy boards to
 enforce Federal Medicaid statutes. We modiJed our introductorydiscussionto make it
 clear that Statestypicallyhave chosen to rely on the boards as their enforcement arm.
 Further, in both the draft andj?nal report our discussionconcerning the lack of resources
for enforcement addresses State board concerns that StateMedicaid agencies look to them
 to enforce the Federal patient counseling law withoutsharing any of the Federal finds
 they receive under the Medicaidprogram.

EXTERNAL ORGANIZATIONS’              COMMENTS

These comments serve as an important complement to our report. They add useful
perspective, especially with respect to the obstacles to patient counseling. The
associations tend to emphasize the need for Federal initiatives to address these obstacles
(especially with respect to the economics of pharmacy practice) while more generally
expressing their concern about any broadening of the Federal role. The consumer-based
organizations call for stronger Federal action in ensuring that patients are adequately


                                             10
informed We are sensitiveto the scope of the obstacles inhibitingoral counseling by
pharmacistsand to the primary role of Stategovernmentin enforcing existing counseling
laws. At the same time, we must reemphasizethatour survey reveals thatthe enforcement
of Federal and Stateoral counseling lawshas been minimal. It is vital, we believe, for
both levels of governmentto give greater attentionto the implementationof these laws and
to support “shopping”and other techniques towardthat end.




                                          11 

                                    APPENDIX                            A

              SURVEY OF STATE PHARMACY BOARDS

Response Rate to the Survey


   Number of States Surveyed*                      51
   Number of Responses                             46
   Response Rate                                  90%

   *Includes the District of Columbia
   Nonrespondents   were: the District of Columbia,
   Kansas, Maine, Michigan and South Carolina.



Survey Questions and Responses

In your view, how informeddo pharmaciststend to be of their obligationsunder your
State’spatient counseling requirement?
                                                                Number
                                                                                  Percent
                                                                of States
                     Well Informed                                 24               53
                     Very Well Informed                            11               24
                    1rry              Informed              1      tr        1      z.


                      Percentages   may not total to 100 due to rounding.


Withinthe past year, has your Board conducted any educationaleflorts intendedto help
pharmacistsunderstandand/or carry out the State’spatient counseling requirements?
                                                   Number
                                                                        Percent
                                                   of States
                                Yes                     38                  83
                                No                      8                   17

                                Total                   46                  100




                                                      A-l
   If yes, please check (and briefly explain) any offollowing educationaleaorts that apply.


                                                                                  Number of States             Percent of
                                                                                  Undertaking Effort             States
 Made information available at on site inspections                                        33                           89
 Mailed information to pharmacists                                                        31                           84
 Made information available at professional
 association meetings

I Conducted      other educational efforts                               I                9                I           24
 Issued media announcements                                                               6                            16
 Mailed information to patients                                                           5                            14
 Made information available on the Internet                                               3                            8

ITotal Number of Efforts Reported
1 N States Responding    = 37 (Multiple   responses   permitted.)
                                                                                         117




         I   Number of Educational Methods Undertaken by States to Help Pharmacists
                 Understand and/or Carry Out Patient Counseling Requirements
          Number of Methods                                         Number of States           Percent of States
                                                                                                                   I


             1                                                               2                         5
             2                                                               7                        19
             3                                                               18                       49
             4 or more                                                       10                      27

         ITotal
         1 Percentages   may not add to 100 due to rounding.
                                                                                                                   I




                                                             A-2 

Does your Statehave any continuingeducationrequirementsspectjkally intendedto help
pharmacistsconductpatient counseling?


                                        Number
                                                     Percent
                                        of States
                         No                43          94
                         Yes                3          7

                        ITotal

Withinthe past year, has your Board conducted any shopping eflorts, whereby individuals
pose as patientsto assess compliancewithpatient counseling requirements?


                                        Number
                                                     Percent
                                        of States
                         No                29          63
                         Yes               17          37




Withinthe past year, has your Board conductedsite visitsof pharmacies to assess their
compliance withStatepharmacy laws (includingpatient counseling requirements)?


                                        Number
                                                     Percent
                                        of States
                         Yes               39          85
                         No                 7          15




                                         A-3 

If yes, about whatpercent of pharmacies in the Statehas your Board visited?

             Number of            Mean
                                                  Median          Minimum   Maximum
               States
                 37               71%              80%                10%    100%




Has your Board conducted other types of proactive enforcement eflorts to assess
compliance withpatient counseling requirements?


                                           Number of
                                                             Percent
                                             States
                           No                     29             63
                           Yes                    17             37

                         ITotal

Whatis the most recent year for whichyour Board has compiled statisticsconcerning
complaintsand disciplinaryactivities?


                                         Number
                                                           Percent
                                         of States
                1996                         19             54
                1995                         15             43
                1994                          1              3
                Total                        35              100

                Years reported were a combination of CY, FY, and 

                YTD. 

                Percentages may not add to 100 due to rounding. 





                                              A-4 

For that year, please provide the following:

A) Number of Complaintsof Any Type Made to the PharmacyBoard:


             Number of
                                   Mean                Median            Minimum   Maximum
               States
                 30                 269                 106                 6        1576



B) Number of ComplaintsInvolvingPossible Violationsof PatientCounseling
Requirements:

             Number of
                                   Mean                Median            Minimum   Maximum
               States
                 20                  22                  12                 0        119



Whatwouldyou say is the primary source of complaintsinvolvingpossible violationsof
patient counseling requirements?




                IConsumers                         I      28         I    76



                I Law Enforcement                  I       3         I
                I Pharmacists

                IPercentages   may not add to 100 due to rounding.




For the prior year, please completethefollowing:

A) Number of Complaintsof any Type Made to the PharmacyBoard:

             Number of
                                   Mean                Median            Minimum   Maximum
               States
                 28                 228                  89                 0        1236



                                               A-5 

B) Number of ComplaintsInvolvingPossible Violationsof PatientCounseling
Requirements:

              Number of
                                   MeaIl             Median          Minimum   Maximum
                States
                  21                 15                  8              0        84


For the most recent year for whichyour Board compiled statisticsconcerning complaints
and disciplinaryactivities,please provide thefollowing:

A) 	Number offlnal, formal disciplinaryactionstaken againstlicensed pharmaciststhat
    were based at least in part onfailure to adhere to patient counseling requirements.


              Number of
                                   Mean              Median          Minimum   Maximum
                States
                  34                  7                  3               0        80


B) 	Please indicatethe number of such actionsthathave resulted in revocations,
    suspensions,fines, reprimands, or other disciplinaryactions.


                                                      Number
                                                                     Percent
                                                     of Actions
                  Fines                                  176           50
                  Reprimands                             129           36
                  Other                                   24            7
                  Suspensions                                16         5
                  Revocations                                9          3
                  Total                                  354           100
                   Number of States responding = 23
                   Percentages may not add to 100 due to rounding.




                                               A-6 

  Please indicatehow much of an obstacle each of thefollowing represents to e$ective
  enforcement of patient counseling requirements:

                                                                           Moderate   Significant      Very
                                              Not an       Minor
Categories     Ranked by States                                                                     Significant   Totals
                                             Obstacle     Obstacle         Obstacle    Obstacle
                                                                                                     Obstacle


Complexity      of the law
                                              (4:)                                                                (lG%)
Higher priority enforcement 

issues for the board                          (167%) 
                                                            (Iii%)
Opposition     from professional 

community                                     (2&j 
                                                              (Z%)
Lack of resources
                                              (136%)                                                              (lCt%)
Limited complaints/referrals           to
the board                                     (219%)                                                              (lit%)
Percentages    may not add to 100 due to rounding.




  Please indicatehow much of an obstacle each of thefollowing represents to pharmacist
  compliance to patient counSelingrequirements:

                                              Not an       Minor           Moderate   Significant      Very
Categories     Ranked by States                                                                     Significant    Total
                                             Obstacle     Obstacle         Obstacle    Obstacle
                                                                                                     Obstacle

Lack of commitment from 

pharmacy owners/management                     (9:) 
       (A%)             (2&j        (4&           (I:%)

Underutilization of supportive 

personnel in pharmacies                       (136%) 
     (2o9%)            (&)         (209%)         (4:)

Limited reimbursement          for 

counseling services                            (2%) 
       (9:)             (lZ%)       (3&j          (46)


Inadequate      computer     software
                                               (167%)      (4:)              (2F%)        (7;)          Vh

Insufficient counseling        skills of 

pharmacists                                    (167%) 
                                   (7;)          (00)

 Percentages    may not add to 100 due to rounding.




                                                                   A-7 

  Please indicatehow much of an obstacle each of thefollowing represents to patients who
  wish to receive pharmacist counseling:
                                                                                Significant      Very
                                         Not an      Minor           Moderate
Categories    Ranked by States                                                                Significant   Total
                                        Obstacle    Obstacle         Obstacle    Obstacle
                                                                                               Obstacle

Lack of patient knowledge
                                                                        10                         6
about the counseling
                                         (4;)        (li%)            (22 %)      (4%)          (13 %)      (lZ%)
requirement

Lack of pharmacist     availability

                                         (21%)       (136%)           (456)       (4%)           (4:)       (HE%)


Prescription area not
conducive to communication
between patients and the                  (0:)       (136%)           (3Z)        (4:)          (136%)      (2%)
pharmacist

Insufficient patient access to
basic prescription drug
                                          (9:)       (32)             (4&         (167%)         (0:)       (lCZ%)
information

Percentages   may not add to 100 due to rounding.




                                                             A-8 

                             APPENDIX                    B



                         THE MEDGUIDE EFFORT
For about 30 years. the Food and Drug Administration (FDA) has sought to enable
consumers to receive more and better information about the prescription drugs they use.
Its first such effort was a requirement that written information be provided that made clear
the dangers associated with certain inhalation products. Toward the end of the next
decade, it proposed a rule that would have required drug manufacturers to include patient
package inserts for 10 classes of drugs. In 1982, the FDA withdrew the proposed
regulation in response to concerns about over-regulation.

Throughout the 1980s and into the 1990s FDA continued to stress the importance of
consumer education, particularly through the issuance of written materials that were
distributed with the drugs and made clear the best ways to take a drug and any side effects
associated with it. It conducted a number of surveys of patients assessing how often they
were provided such information about their prescription drugs.

By the mid-1990s, FDA found that the rate at which such information was being provided
had increased. But it felt that the progress was not nearly fast or thorough enough, given
the continued high incidence of adverse drug events and patient noncompliance with
prescribed drug regimens. Further, continued advancement in computer technology, it
felt, made the provision of consumer information more efficient and economical than it
would have been a decade or two ago.

Thus, in August 1995, it once again proposed a rule entitled, “Prescription Drug
Labeling: Medication Guide Requirements.” Widely cited as the “MedGuide”
requirements, they called for manufacturers to produce written product inserts for certain
categories of drugs posing particular dangers, encouraged the preparation and distribution
of written information for all drugs, and established performance standards for both the
distribution and quality of written information.

As the performance standard for distribution, FDA proposed using the pertinent goal
already established by the Public Health Service in the “Healthy People 2000” set of
performance goals. The goal set forth is that by the Year 2000 at least 75 percent of the
people receiving new prescriptions would be given useful written patient information. For
the Year 2006, the goal is 95 percent.

As the performance standard for determining what is “useful” information, FDA identified
7 components which must be satisfactory. They are: scientific accuracy, consistency with
a standard format, nonpromotional tone and content, specificity, comprehensiveness,
understandable language, and legibility.




                                            B-l
In August 1996, Congress, as part of the FDA appropriations bill, included a provision
giving private sector groups 120 days to “assess the effectiveness of current private-sector
approaches used to provide oral and written information to consumers” and to submit to
the HHS Secretary an alternative to FDA’s Medguide plan. If an alternative plan that was
acceptable to the Secretary was not produced, then FDA would be authorized to proceed
in carrying out its MedGuide requirements.

The Secretary appointed the Keystone Group, a private firm, to appoint and develop a
steering committee comprised of diverse interests. The 34 member Committee met on
numerous occasions and produced its action plan in December 1996. In January 1997, the
Secretary approved the plan, which essentially looks to the private sector to foster
progress in providing more and better written information about prescription drugs to the
public. It sets forth the performance target that action plan will result in “the distribution
of useful information to 75 percent of individuals receiving new prescriptions by the year
2000 and to 95 percent by the year 2006. In determining the kind of information that
would be regarded as “useful, ” it supplants FDA’s 7 criteria with 11 distinct components.

With respect to oral counseling, the plan makes three recommendations. The first is that
State pharmacy boards “continue their efforts to assess the quality of oral counseling
provided by pharmacists in all settings in which prescription medicines are provided to
ambulatory patients” “This assessment,” it adds, “should include the nature and
effectiveness of the ‘offer to counsel’ made to the patient.”

The second recommendation is that “a National Symposium on Oral Counseling by
Pharmacists about Prescription Medicines be convened in 1997 by pharmacists’ groups,
including NABP [the National Association of Boards of Pharmacy]. . . The purpose of
this conference would be to assess the effectiveness of current oral counseling guidelines
. . . and to assist State boards of pharmacy and NABP in enforcing existing guidelines
and developing new guidelines, if necessary, for oral counseling.”

Finally, the third recommendation is that FDA “should continue to conduct periodic
consumer surveys to determine whether consumers are receiving oral counseling when
they obtain their prescription medications. ” It adds that for oral counseling “the
appropriate mechanism to assess the quality of the information. being provided to
consumers by pharmacists, as well as the offer to counsel, should be developed by
individual State boards of pharmacy.. . ”




                                             B-2 

                             APPENDIX                   C

          COMPLETE COMMENTS ON DRAFT REPORT

In this appendix, we present in full the comments we received on the draft report.




                                            C-l
                                                                                     Public Health Service 

                                                                                     Food and Drug AdminIstration 



                                                                                      Memorandum


         From:             Deputy Commissioner for Management and Systems

         Subject: 	        FDA Responseto OKi Draft Repott: ‘State Pharmacy Boards’ Oversight of Patient
                           Counseling Laws,” OEM-9790040

         To: 	             June Gibbs Brown, Inspector General
                           Department of Health and Human Services


                 We have revlewed the OIC Draft Report: ‘State Phirmacy Boards’ Oversight of Patient
                 Counseling Laws,” and offer the following comments:

I­
*	               For over thirty years, FDA has sought to enable consumers to receive more and better
                 information about the prescription drugs they use. We have recently conducted the fifth in
                 a series of surveys of both oral and written information being given to consumers with their
                 prescription medications, Our latest survey indicales that the level of verbal counseling is
                 still very low and although written information being given to consumers has increased,
                 only 6770 of patients reported receiving wrltten information from their pharmacists.

                 We strong/y agree with your proposal to have the Food and Drug Administration
                 collaborate with state pharmacy bpards by collecting data about the usefulness of written
                 information offered to patients by pharmacists, FDA could then assessthe usefulness of
                 this information In accord with the criteria established in the Prescription Information
                 Action Plan developed by a divorse steering committee made up of health professionals,
                 consumers, patient advocacy groups, drug information vendors and the pharmaceutical
                 industry. This Plan was accepted by the Secretary on January 13, 1997. This joint effort
                 would help FDA carry out its respon’sibility to measure progress being made in offering
                 useful written information to patients.

                 FDA is committed to the public-private sector efforts in Healthy People 2000 where the
     .           objective is that at least 75% of individuals receiving new prescriptions be given useful,
                 written information. FDA will continue to facilitate both oral and written information
                 giveri to consumers by health professionals. Our Office of External Affairs has ongoing
                 efforts to help make consumers and health professionals aware of the importance of this
                 information. One of the new initiatives in this area is focused on providing information to          .

                 women and encouraging this population to begin a dialogue with their health care
                 professionalsabout medications,
Page 2 -June Gibbs Brown, IG


We agree with the premise of your Draft Report that encouraging health care professionals
to improve th&r communications with consumers about prescription medicines will
Improve health outcomes and reduce pieventable, medications-related problems. We also
encourage activities to Increase consumer undarstanding and awareness of the benefits and
availability of written prescription medicine information, and the importance of oral
communication between health care professionals and patients.




                                                  --
DATE:         AUG-4 l9m

TO:          June GibbsBrowa        ,
             InspeotorGenetnl

FROM:


SUBJECT: Office of ImpectorGeneral(OIG)DraftReport:%ate PharmacyBoards’
         Oversight of PatientCounselingLaws,” (OEI-Ol-97+0040)

We reviewed the above-referencedreportwhichassessesstate pharmacyboards’
oversight of patient counselinglaws.

Our deeailedcomments on the reportiecotmcndatiotu arc attachedfor your
consideration. Thmk you for the opportunityto review andcommenton this sport.

Attnchment



                                                                   .
                                                                                .




                                                                                    .
.




                ..     Comments_ofthe HealthCareFinan&! t’HCFAl.on
                         gffh of boector GeneraltOJO\ DraftRSQ@Z
                 “State Ph-                                       ’ Laws’:
                                Boards’Oversirrhtof Patient COUllSW
                                    [OEI-01-97-00040~

    OIG Recowdation

    The Food and Dnq Admhistrati~n(FDA) shouldcollaboratewith state pharmacy boards
    to collect surveydataon the usefulness of writteninfomation of&redto patients
    receiving new prescriptions.



    We defer to FDA for commentson specificinitiatives.

    DIG Recwen       datioq .

    HCFA should assist with state effortsto edorcc the Medicaidpatient counseling
    mandate.

    JI;ICFARespons

    We concur. WCbelievethere is an urgencyin addressingthe problemsstates are having
    in their efforts to monitorcomplianceof the OmnibusBudgetReconciliationAcr of 1990
    (OBRA 1990)patientcounselingmat&c. Problemssuch as lack of resources,reliance
    cmsporadic pharmacy board inspectionvisits, and the lack of cmsumer educationon
    their right to be counseled,have hamperedthe effectiveaess of the pharmacyboard&ate
    Medicaid agency &ersight of patientcounseling laws. ’                                     a
                                                                                    \
    &iditional cw       em on Q&$xmted      Initiatives:

    OIG lpjtiative #l

    Develop and hsesr s@teProg& Towarda PatientCounseiingPerformanceObjective


.   We concur. HCFA is conmimd to assistingstates.in fully adhexingto Medicaidpaticnt
    cpun~elir~g nquirements, and meeting that objectiveby year 2000. By doing so, at least
    75 percerit of individualsreceivingnew prescriptionswill be giveuuseful patient written
    infinmation. We mustrecognize&is objective is not mentionedin the OERA 1990 law,
    nor is it mentioned in XCFA regulations. Starescan only be encouragedto use the
                                                                                    9
                                                                                    II
            ..



 objective as a yardstick to improvethe effectivenessof patient counselingeach year,
 HCFAwill assist states by amendingthe Dmg UtilizationReview(DUR)Annual Report
 insttmions to coUectmore specificinformationregardingcompliance.monitoring
                                                           the 

 efforts that have beenpetformed and how effectivethese effortshave been Questions
 concen&g tbc progressof each state in tnonito~& compliance,m well as the level of
 compliancein the phermrcies with the counselingrequiremeats,will be includedin
 future repon iastructions. This informationwill be &ared with states tn HCFA’s
 Medicaid DURNewsletter.

 Sincemany Medicaidk&iciaries read poorly and/ormay XIOZ        understandthe need
 enoughto&e time reading driigi&fmatioq it is crucialto have on! counseling
’stmdards as weI]. Mso, since most repeatMedicaiddrugusers are elderly and/or
 chronically ill or disabled,hop&@ high oral standards8re at-b&abledue to a
 traditionallymore cooperativeclienteleand t&fact that constantmedicationis a viial
 part of thtirdaily routine. CounseIingthese individualsare tht top priority.
     .. .
OK I@attve #2

 Develop ouidttincs on Stae Oversightof the FederalPatient CounselingMandate

J-XFAResnonse

We concur. HCFAis committedto Federal-statepamship. Therefore,WCwill solicit
input fhm states on the practicesthey find most effective,and distributethis information
to all pharmacy boards.

OS3kliti8tive##a                                                                .
 Facilitate the Conveniq of a NationaiSymposiumon Oral Counselingby Pharmacists .



 We ccmm. AlthoughFederal leadershipis necessaryin facilitatingthis meeting,
 Congrosshat not sppropriatedthe rescues necessaryto lead this �ndcawr.
 Nevertheless,HCFAis Attrycommittedto assistingstate uversightof the counseling
 requirements,ad thereby improvingthe quality of care of MedicaidPatients. WC
 believe includingthe activitiesdescribedabovewill assist us in accomplishingthis
 oiijectivc~
                                                                    ..
                                                                .


,
    ‘*
         .




             AUG I 5 1997

             TO8            InspectorGeneral,DHHS 

             FROM:    Acting Deputy A' inistr&tor 

                                     $" 

             SUBJECTt Office of Insp
                      Pharmaoy Boar                          ent Counseling      Laws/
                      (CIN: OEI-Ol-

             In response to an inform           st f-orcommentson the subject 

             report, we are providing           commentsas listed below. 

             This report walginformal 
         ded to HRSA on July 10, 1997, 



             HRSA appreciatesthe oppo
             subject draft report. The
             informationon a subject
             importantfor health aare       ofessionalato communicate with
             patients about prescripti      medicationsto improveoutcomes and
             reduce medicationmisadve
             One issue that wae not ad 
 ssed in the report that may serve as 

             a barrier to counselingp
 ents is the need to improve the 

             communicationskills of p 

             addressed is the age, gen 

             that exist in providing 

             The OIC may want to consi       the following published     refiources   as
             referencesfor inalusfon        the draft report8
                   Manasse HR Jr. Medic     on use in an imperfectworld. 1: drug 

                   z&adventuring as an      sue of public policy. Am J Hosp 

                   Pharm, 1989:46:.92
                   Manasse HR Jr. Medic
                   driig misadventuri
                   Pharm, 1989:46: 1
                     Johnson JA, Bootman      Drug-RelatedMorbidityand 

                   Mortality,    Arch Int   'Med/vol155, Ott 9, 1995. 1949-1956. 

             With regard to the chai                  bility, the premises of the 

             report are plausible fr                  1 perspeotivs,but they look 

             odd from the perspectiv                   in a State government, The 

             draft text presumes tha                  lear duty of State pharmacy 

             boards to enforce Feder                            There is no dire& 

                            .. 

                           . ‘i 





                     ..




        Page 2 - InspeatorGeneral, DHHS 


        duty to do so. Instead,there is an indirsot   ahain of
        responsibilitythat must be effectivelytransmittedfrom HCFA and
        a State Medicaid agency t4 that Gtate's pharmao board.   The
        draft report should prob     alarify this, plaox ng the
        responsibility on the sta   Medioaid agency to deputise and fund
        the phamacy board to per rm the requisitetasks with respect to
        pharmacy counseling. The this report might discuss the
        relative merits of hazd.1’ forcement"versus soft "educatio!P
                                    e for the subsequentdiscussionsof
                                    nter-professionalpolicy controversy
                                   dnotea 6 and 28 explainsthe softer
f

* 
                                 by most boards; this report should
                                    sy in the backgroundexplanations,

                                   on pages four through seven, the text
                                   sent occura through, "shopping 

                                      T,.poseas patients to assess 

                                      ints, particularlyregarding 

                                      nt, should be more fully 

                                                                 is 

                                      sumes that such lrshopping'B

        cost-effectivein combati 
 minor quasi-violationslike failurs-

                                   Endnote 18 might profit&blybe ' 

                                      on, and the existinganecdote 

                                      sumes that HCFA counseling 

        regulationsshould take 
 igh priority
                                       	       among enforcement
        activities. 
                 hould reflect State pharmacy
        boards' con 
                 of drug storage,abuse of drugs,
                                      are more dangerousproblems that
                                      e for saarae enforcement

      . 	 The national symposiumpro
                       symposiumpro osed on page nine would be best
        conv8ne.dby HCFA and FDA, csawing on the perspectivesof
                                                 perspectivesof the
        other agencies mentioned,
                                 tclthe reader if an extract
        It would also be helpful tclthe                      of the
        relevant portions of oBRA 3990 (Sea, 4401(g)(z))were attached.




                                    I 

       Page 3 - InspectorGenerai,DHHS 




       Page i Executive Summary,Baakground,states “They also add as 

       muah as $100 million a ye    to health care co8ta.e Page 1,
                                  

       Introduction,Eaokground, tates    Wosts associatedwith the waste
       in misused drugs and the 
    its of not receiving intended
       therapy have be              to acaount for as much as $100
       billion a year."              llion appears to be the correct
       figure, so the.$lO            n the ExecutiveSummary may need 

       to be corrected if they a    referringto the same cost figure. 

       Contained in the findings     pages six and seven of the report
       are different numbers for    e respondingboards (i.e., 45, 44 and      .
'1     46).  It is unclear as to    ich number is oorrect.
*
       Page 8, paragraph  1 state "'TheHHS Secretaryand the FDA are
       committed to public-priva effortsthat will result by the year
       2000 in at least 75 peroe   of the individualsreceiving new
       prescriptionsbei             ful written information."Healthy
       People 2000 obj                   1 counselingas well by its
       objective 12.8 "Increase    at least 75 percent of the proportion
       of people who receive use 1 informationverbally   and in writing
       for new presorip             esaribersand dispensers,~~ Although
       the Keystone gro             me to a consensus,the steering
       committee "did               	
                                  e very importantrole that oral .
       counseling    will           ving the goals of this Plan.11It is
       unclear    if the            r only written informationor if
       oral counselin 

         On page 0, paragraph 5, li ? 7‘ referenceis made to a,
         ll..,presorfptioninformati I action plan approved by the I-MS
         Seoretary (see AppendixA)4 I The AppendixA in the draft I have
         ie a collectionof statists:a1 tables titled lqSurveyof State
         Pharmacy Boards,,'and no IIf:
                                     :eSCription  InformationAction Plan"
     . 	 is attached. If Appendix E Yl?heMedguide Effort," is intended, 

         the text should so state. kf so, further editing is indicated, 

         as that text is somewhatur :learand the lVcriterialt
and the
         concretenessof an "Action ?lan” are not obvious in it. If not,
         the real Action Plan that t >e authorshad.in mind should-be
         attached and properly aitei     The appropriatecorrection should 

         be made in Endnote 6 as we1 i. 

                                   .




Page 4 - h8peatOr Cm&a;, DHHS 

                                                       0 

Staffquestionamay be referred to MiahaelKerbstih the Division
of Grantsand ProcurementNanagementon 443-5256. 



                                  v
                           ThomasG. Morford 


                     *
co: Mr. Comigan, W/attachment 

     	
  . Mr. Ge&ifig,k/6ttachn\ent
    Mr. Clark,w/attachment
    Dr. Paavola,w/attachment
                        ment 

    Dr. Robimon, w/.attao
    Dr. Mahoney;w/a'ktakant

    Dr. Snyder,w/attiachm

                        nt 

                      .3 

                      National      Association            of Boards of Pharmacy
                                    700 Busse Highway     �    Pad Ridge, IL 60068
                                     ����������������     �    Fax: 347/696-0124




July 18.1997


                                               .
June Gibbs Brown
Inspector General 

Office of Inspector General 

Department of Health & Human Services               *-

Washington, DC 20201 



RE: 	   Draft I.nspcctioa Report “State Pharmacy Boards’ Oversight of Patient
        Counseling Laws”


Dear Ms. Brown:

The National Association of Boards of Pharmady (NABP) represents the state boards of
pharmacy in all jurisdictions of the United States, Guam, Virgin Islands, Puerto Rico,
nine provinces of Canada, three states in Australia, and New Zealand. NABP assists its
member boards in developing, implementing, and enforcing uniform standards for the .
purpose of protecting the public health.

The NAJ3Pcompliments the Office of the Ins@xztorGeneral for researching this critical
patient care area and concurs, in general, with tht findings and subsequent         ’
recommendations. The state boards of pharmacy and NABP also agree with the Office of
the Inspector General’s assertion that plikrmacistscan help to reduce adverse drug
reactions and the misuse of prescription drugs by “providing patients with oral and
written information.”

Studies conducted by NABP confirm the finding that too many patients, for many of the
reasons noted in the report, are not being counseled about their prescription medications.
We believe that counseling is a necessary responsibility of the pharmacist; a
responsibility of the individual pharmacist, who must be competent and willing to
counsel, and employer, who must provide the resources and support, to provide
counseling to patients.
June Gibbs Brown
July 18,1997
Page 2




SPECIFIC
       COMMENI$
                                                .

FINDINGS

SIote pharmucy boards have played an ktive role in explaining ahd urging pharmackt
compliance with State patient counseling laws.

The report accurately notes the efforts of the state boards of pharmacy to educate
pharmacists, through a number of methods and avenues, about patient counseli laws
and urge their compliance with these laws. The efforts of the boards in this area were
exceptional and clearly demonstrated that state boards of pharmacy perform meaningful
functions beyond licensing and discipline.

State boards, through NABP, did develop the Patient BiIl of Rights (Attachment A) to
educate patients about their rights under the new counseling laws. Although we agree
with the report’s conclusion that these efforts were less than those expended to educate
pharmacists, the reason for such disparity is clearly resources and not an unwilliigness to
                                                                                         .
doso.


Xhe boar&’ ertfarcement of the counseling laws has been minimal.

Although the actual disciplinary actions taken by state boards of pharmacy for failing to
provide counseling may seem low, the activity of the boards of pharmacy to ensure that
patients are counseled is significant, As noted in the report, a number of boards of
phaunacy use in.formaIconferences or written warnings to increase the compliance of
phaqmacists with state counseling laws/rules. These activities often do not result in a
formal discipliiary action, such as the revocation or suspension of a pharmacist’s license.
Data from NABP’s Disciplinary Clearinghouse indicate that the state boards of pharmacy
are taking action in situations where counseling is not occurring or medication errors
could have been prevented if counseling was provided and more actions than noted in
previous years. We agree with the finding of the report that more effort needs to be
devoted to this area and the use of “shoppers” increased,
June Gibbs Brown
July 18,1997
Page 3




The report accurately identifies a major obstacle which impedes the ability of state boards
of pharmacy to be more effective .in enforcing counseling laws - tiding. This factor is,
in NABP’s opinion, the single most limiting obstacle. We cannot emphasize enough the
importance of state governments and Federal agencies providing additional resources to
the state boards of phatmacy to enforce counseling laws properly and thereby, better
protect the public health and welfare. Without adequate and additional funding, the state
boards of pharmacy arc restricted to.a reactive regulatory stance and limited to
responding to complaints or taking actions when violations occur and patients injured or
inappropriately served.


RECOMMENDATIONS

The FDA should cokborate with State pharmacy boa& to collect survey data on the
usefulness of written information offered to’individualr receiving new prescriptions.

NABP strongly supports this recommendation. Through the NABP, the state boards of.
pharmacy have worked collaboratively with the FDA on a number of projects and
enforcement initiatives. We believe that a cooperative partnership which recognizes the
separate authority of the state boards of pharmacy and FDA and creates a collective
regulatory synergy will improve the enforcement of counseling laws and patient care:
June Gibbs Bro&
JuIy 18.1997
Page 4




The HCFA should/crcifitate Stale effom b enformthe Medicaidpatient            comsefing
mandatk

          Develop and assess State progress toward a patient counseling performance
          objective.                            .
          Although NABP agrees that a performance objective needs to be established and
          recognizes that HCFA bears responsibility for the Drug Utilization Review
          provisions of the Medicaid program, we would urge that any such
          recommendation recognize the authority of the state boards of pharmacy and the
          report’s recommendation be revised to extol HCFA to develop a pefiormance
          objective in concert with the state boards of pharmacy. NABP would be glad to
          assist in this regard and help to represent the state boards of pharmacy.

          Develop guidelines on State oversight of ihe Federal patient counseling               .

          mandate.
          NABP does not agree that Federal standards for ensuring enforcement will
          necessarily assist states. If the guidelines are not developed iu conjunction with
          the states and do not include Federal funding, the states will be faced with
          additional requirements and no means to sati@ them. The problems with lack of
          enforcement noted in this report will be further exacerbated. The state boards
          should set the standards and adopt these standards as a national, uniform Policy as
          they have done so with other requirements and patient care standards. This can be
          accomplished through the collective efforts of the states and NABP. The
          standards for enforcement once developed, could then be recognized by HCFA
          and additional funding from HCFA provided to the states to ensure that the
          standards can be implemented.

    � 	   Facilitate the convening of a nakonai symposium on oral counseling by
          pharmacists.           ’
          NABP strongly supports this recommendation.
     June Gibbs B&n
     July 18,1997
     Page 5




     Thank you for the opportunity to comment on this report. If we can be of any tkther
     assistance to you, please do not hesitate to call upon me.

                                                    .   _.
     RespectfUy yours,

     NATIONAL ASSOCIATION OF
T
-5




     Executive Dircctor!Secre&q



     Attachment A: Pharmacy Patient’s Bill of Rights
-.. --. -.

                                                                                         Attachment         A    ,




                           .- Pharmacy                          Patiexxt's 


             EWLL                          OF                  RIGHT’S
                                                  PREAMBLE

           IN ACIWOWLEDGMEii           OF an 1ncreasIngly infdrmed and cost-conscious public, and with spe$lc
     Seferencc to the proliferation and complexity of drug therapy. Pharmacists have recognized the need for :
     ‘Pharmacy Patient’s Bill of Rights.’ To reinforce their commitment to protect the health and well-being of the1
     xxients. Phzmncists wed a common reference to describe their covenantal relationship with the public. II
     rcugnidon of the public’s tight to freedom of choice and the Pharmacists’ professional fehrlonship with thei
     ,atients, tbls document delineates: 1) the patient’s rights and rtiponsibilities with respect to appropriate drug
     herapy. and 2) the patient’s responsibilities and Pharmacist’s riehrs with respect to the quality of seenrice
     >tovided. Such a charter is setforthwith and shall be known‘as the “Pharmacy Patient’s Bill of Rights.’


             PATIENT        RltGHTS/PH~RMACIST’S                           RESPOL’bIBILITIES

     hztiunts have tba dgbt          to expect     tbefr’pbawnacfst         to:
     1. Be professionally competent and adhere to accepted standards of pharmacy practice.
     1. Treat them with dignity, consistent with profesbional standards for all patients, regardless of manner oi
     %tyment. race, sex, age. nationality, religion, disability. or other discriminatory factors.
     3. hct in their best interest when maklng phatmaceurical care decisions.
     4. Serve as their rdvoate for appropriate drug thenpy and to make reasonable efforts to recommend
     alternative choices in coordination with the patlenw’ other health care providers.
     3. Wtintain their medical, records, keeping them confidential. using them routinely to maximize their care
     And making them available to the patient for review upon request.
     6. Provide counseling, using the methods appropriate to the patients’ physlcal, psychosocial and intellec­
     tual stm.ls.          .
     7. Have their prescriptions dispensed and pharmacy services provided at a pharmacy of their choice In
     an atmosphere which allows for confidenclal communication and in an environment which is privat&
     properly lighted, well ventilated and clean.
     8. Monitor drug therapy within their medical regimen forsafety and efficacy and make reasonable effotu
     to detect and prevent drug allergies, adverne reactions, contraindications or inappropriate dosage. ’
     9. Monitor their compliance and proper drug use and institute remedial interventions when necessary.
     10. Prominently post the Pharmacy Pattent’s Bill qf Rights.

             PATIENT         RESPONSIBILITItiS/P~ARMACIST’S                                      RIGHTS

    III orderJ3wpbarntacfsts            to meet rhifr responsfbilfttes   co pdfenta as setforrb                      t
    tbfs “Pharmacy    Patien;‘s         Biff of Rt’ghts,apatients are responsible for=
     1, Provfding the peison;rl demographlcs, rhedical history and payment ,mechanism including thttd patty
     payor lnformatlon necessary for Pharmacists to lndlviduallze care, the method of its provision and its
     reimbursement.
     2. Implementing the drug therapy regimen conscientiously and reporting their clinical response ;o their
     pharmacist, especially untoward reactions and any changes in their health status and medical care,
     3. Cooperating with the pharmacist and authorizingtheir physician or other health care practitioner to
     release the medical infotmationtiecessaryfor the pharmacist to practice responsibly.

    I
                                                                     .    ‘.              .            .s
  .
llllll  citizen
         .*     Advocacy Center
                  A lhining, Research,and SupportNetworkfor Publtc
               Memberaof lZeu1t.htkm Regrclatorycrnd Governing Boa&a

                                                              June 12, 1997


 Ms. June GibbsBrown 

 InspectorGeneral 

 Departmentof Healthand HumanServices . 

 Wash&ton, DC 20201 


 Dear InspectorGeneralBrown: 


        Thankyou for askingfor our comment8on your draftreport, “StatePharmacy
 Boards’Oversightof PatientCounselingLaws”, The CitizenAdvocacyCenter (CAC)is
 a 501 (c) (3) trainingand supportcenterfor publicmemberswho8erveon statehealth
 licensingboards, includingboard8 of pharmacy, CACparticipatedas a memberof the
 SteeringCommitteefor the CollaborativeDevelopmentof a Long-RangeActionPlan for
 the Provisionof UsefulPrescriptionMedicineInformationthat submittedits ActionPlan
 to SecretaryShalalain December1996. CACtook a leadrole in promotingthe need for
 more and better oral cowlseling, In a February26, 1997letterto SecretaryShalala,CAC
 stated, “Certainlywithregard to pharmaoy,t&ereis plentyof legi8lationalreadyon the
 books in the form of OBRA1990requirements(underHCFAjurisdictio&nd lawsin
 over 40 state8(understatepharmacyboardjurisdiction)requirmgpharmaciststo offer to
 counselpatients. However,the actualdeliveryof oral counselingneedsto be improved.”

        The new OIGreport reinforceswhatmanybelievedto be the case-that state’
 patientcounselinglawsare not working. Whilerecognizingthat the state board8face
 major obstacle8to the successfulimplement&ionof patientcounselinglaw8(lackof ’
 resourcesfor enforcement,economicsof pharmacypractice,andlimitedpatientdemand),
 the report also finds-that“theboards’enforcementof the counselinglawshave been
 minimal”. This findingcannotandniustnot be ignored. In three shortparagraphs,the
 report pinpoint8the problemof poor enforcement,as follows:

 ‘They havemadelittleuse of “shopping”visits, wherebyboardrepresentativespose a8
 patientsto assesscompliancewithcounselingrequirements. In the past year, only 17 of
 46 re8pondingboard8madesuchvisits. Generally,they weremadeonly to pharmacies
 againstwhicha complainthad been lodged,




              1424SixteenthStreet,NW0Suite1059Washington,   DC20096
                      PHONEi(202) 462.1174 FAX (202) 2656664
      They have relied on inspectionvisits as the majormeaneof enforcement. Suchvisit8are
      conductedwith widelyvarying degreesof frequency. At best they offer limited
      Opportuniti&$orassessingthe extentand adequacyof counseiing.

      They have taken fewfinal , formaldisciplinaryactionsinvolvingviolation8of patient
      coweiing hW8. Of the 354 action8takenduringthe paatyear by 23 reportingboards,
      208 (59 pent) were in just 3 stfites.”

              That bring8 u8 to the recommendations.We agreewitheachof the 4
      recommendation8in the report - ono addre8Sed to FDA, the other 3 to HCPA. WC
      believe, however,there is a needfor a fifth recommendation- one addressedto the state
      boardsof pharmacy. Sucha recommendationsshouldstatebhmtlythat while them is a
      goodunderstandingof the diff~culticsthe stateboards,facein enforcingpatient
      counselinglaws, that cannotbe used as an excusefor lax enforcement.Unenforcedlaws
      breed a contemptfor governmentthat eats awayat the fabricof our society. Legislatures
      in 46 stateshave determinedin their wisdomthat citizensneedto receivegoodoffersto
      be counseled,andwhenthey acceptsuchoffers-toreceivehigh qualitycounseling. They
      have directedthe boardsof pharmacyto see to it that theselaws are enforced. All the
      sympathyand understandingin the world concerningthe diffculties the boards face




                                        .I
f-*   enforcingthese lawscannotexplainaway the abysmalrecordto date. A strong statement
      to this effect in the final report wouldbe appropriate. CAChas madeoverturesto the
      NationalAssociationof Boardsof Pharmacyto help bring aboutbetter enforcement,and
      we havebeen pleasedwith the positiveresponseof NABP. ButNABPis not the
      enforcementagency, The state boards,individually,mustbe held accountable. A
      statementto that effectby the OIGwouldbe mostwelcome.




                                        m  Da It4
                                              ’ )A. Swankin, Esq,
                                             esident




                                               2
       Buytn Up    CongressWarch
                  �                 Critical Mats � Global Trade Watch - Health Rescarch Group
                                   �                                                              Litigvion &up
                                                                                                 � 


                                                Jogn Uaybmok. President




              Public Citizen’s Health Research Group’s Comments On:
   State Pharmacy Boards’ Oversight of Patient Counseling Laws (OEI-01-97-00040)

                                         Submitted - June 19.1997

      Public’s Citizen’s Health Research Gmup sincerely appreciates the opportunity it
has been given to comment on this topic of vital inkrest to the health of prescriptlon drug
consumers.

       Since 1972, Public Citizen’s Health Research Group has been promoting research-
based, system-wide changes in health care policy as well as advocating for the appropriate
prescribing and use of prcsoriptian drugs. The Health Research Group teMles before
Congress and petitions the Food and Drug Administration (FDA) on issues such as
banning or relabeling of drugs and the misleading advertising of prescription And non-
prescription drugs by their manufacturers. Our publications help consumers make
informed decisions about the health care they receive and the drugs they are prescribed.

       This draft report identifies “mismedication,” a term with no known definition, as a
major national problem and promotes the irrational notion that failure of consumers to
always be compliant (obedient) with their physicians’ prescribed drug regimens is a major
factor contributing to adverse drug reactions. This ambiguous articulation has led to an
erroneousanalysis and to unprqductivc recommendations that do not address the urgency
or the seriousness of the most pressing problem faced daily by millions of .prescription drug
~WMWWW- ~E~w~LWII~drug Induced injury.

        The focus of this draft report is improving consumer access to useful prescription
drug information1 by effective implementation and enforcement of existing laws requiring
pharmacists to counsel consumers about their prescriptions. it is Public Citizen’s view, as
a member of the steering committee responsible for developing the Acfhn Plan for the
Pm&ion of U&id Prescription Medicine lnfomationZ (The Action Plan), that because of
the small proportion of consumers receiving oral counseling about the risk& of their
prescriptions and the dooumented inconsistent and unreliable performance by pharmacists
in warning of potentially fatal drug interactions, oral counseling cannot be considered a
priority for consumers. if remains our view that written information meeting The Action
Plan guidelines is the only source of accurate, consistent, comprehensive, and objective



                                                   Ralph Npdcr, Fuundcr
                         IGOO20rh Sttcct NW   � Washingwn, DC 20009-1001 - (202)    58&1000
                                                                                                       -+3-   Q   Pmcdnnm%lw?sC
information that-a majority of consumersmay receive in the foreseeable future about the
risks of their prescriptions and how to protect themselves from potential harm.
AM 77 years’ of waiting consumers still have no reliable source of objective information
about the risks of prescriptlon drugs, how to recognize adverse effects and what steps to
take should an adverse reaction appear. Written drug information Is the essential “safety
net” that consumem urgently need to protect themselves from the inappropriate prescribing
and dispensing of prescription drugs.

       We will concentrate the remainder of our comments on (I) the preventable problems
facing prescription drug consumers: (2) pharmacisls as counselorsy(3) the distribution of
oral and written information in .pharrnacles; and (4) who is the last line of defense in
protecting consumers from preventable drug induced injury? Our recommendations will
urge the Health Care Financing Administration (HCFA) to require that Medicaid
beneficiaries receive useful written prescription drug Information meeting the guidelines of
The Action Plan. To ensure effective impiemendion there must be strong independent
oversight and quality assurance by the.FDA.

PREVtNTABLE       DRUG INDUCED INJURY: A NATIONAL PROBLEM

       This reports use of the term mismedication has obscured the true nature of the
problem faced daily by prescription drug consumers, the preventable causes of drug
                                                                                        and
induced injury; the adverse drug reactions resulting from inappropriate prescribing”*‘16e7
the improper dispensing&Oof prescriptions. Compounding these risks is the distribution of
inadequate,‘* sometimes dangerous written drug information” by pharmacists.

         By citing the failure of consumers to be compliant (obedient) to their physicians’
prescribed drug regimens as a major coritributing cause of adverse drug reactions, this
report has blamed the victims and has failed to grasp the dimension of the public health
problem facing prescription drug consumers. In the absence of useful prescription drug
information, the present situation faced by consumers, to promote consumer obedience
is irrational and potentially dangerous.‘*

        The pharmaceutical industry has numerous opportunities to promote the use, over
use, inappropriate use, and potential benefits of prescription drugs by spending millions
of dollars advertising to doctors, pharmaclsls, and increasingly in direct to consumer
advertising. Drug industry backed promotion of consumer c6mpliance without ensuring
consumer access to useful drug information only serves the interests of corporate sates,
not the public’s health. Citation 27 in this draft report illustrates precisely why there is an
urgenf need for accurate, consistent, comprehensive, and objective drug information for
consumers meeting the guidelines of The Actiorl Plan. The vldeo tape referred to in this
citation and its accompanying printed materials were distributed to members of The Action
Plan steering committee by the American Pharmaceutical Association. These materials
were funded by a major drug company, Pfizer Incorporated, and over promote consumer

                                              -2-
compliance while minimizing the communication of risk information to consumers by
pharmacists. Public Citizen finds it disturbing that citation 27 suggests this video tape be
used as a training vehicle in a national symposium on oral counseling for pharmacists.

PHARMACISTS AS COUNSELORS

        Public Citizen recognizes the ability and dedication of the many pharmacists who
dally contrIbute to high quality health care by counseling consumers about the risks of their
drugs. We also recognjze the key role that pharmacists can play in reducing the incidence
of preventable drug induced injury by providing cunsumers with Useful drug information.
However, we doubt the commitment of the owners and managers of pharmacies,
particularly large, corporate chain pharmacies in providing a workplace environment,
including adequate staffing, to allow pharmacists to counsel consumers about their
prescription drugs. In this report, 23 of the 45reporting State Boards of Pharmacy (51%)
cited the lack of coinmitmcnt from pharmacy owrle&management as a significant or very
significant obstacle to pharmacist compliance with consumer counseling laws.

       The 34 of 45 reporting State Boards (71%) that felt limited reimbursement for
counseling services was a significant or very significant obstacle to pharmacist compliance
with counseling laws batter reflects the level of commitment of pharmacy owners,
managers, corporations and the trade groups representing their interests.              In the
deliberations that created The Action Plan the commitment of the pharmacy trade groups
representing the interests of pharmacy owners and corporations was to reimbursement,
no oversight, and no effective enforcement of the plan, not in contributing to a solution for
a serious public health problem. If there were a professional F;ommltment by pharmacy
trade groups, then consumers would have had access to useful written drug information
17 years ago.

       Public Citizen has little confidence that the community pharmacists dedicatgd to
providing quality care to prescription drug consumers will be allowed to do so in the current
market driven environment for health care.

THE UlSlRlBUTlON       OF ORAL AND WRI-I-I-EN INFORMATION IN PHARMACIES

        This report documents the minimal effects of the 1990 Omnibus Budget
Reconciliation Act (OBRA ‘90) and subsequently enacted state laws to ensure consumer
access to useful drug information by requiring pharmacists to offer to counsel consumers
about their prescriptions, Results of FDA conducted national telephone surveys of
randomly selected prescription drug consumers between q982 and I 99613substantiates
this finding.

       Pharmacist oral counseling to consumers concerning side effects (adverse effects)
Increased approximately three fold between 1982 and 1996, from eight percent to 23

                                             -3-
percent respectively. During this same period oral information about a drug’s precautions
increased two fold, from 13 percent in 1982 to 26 percent in 1996. However, the
distribution of written Information in any form, regardless of quality, increased over four fold
from 16 percent in 1982 to 71 percent in 1996. This figure of 71 percent approaches the
goal of 75 percent mandated by The Action Plan, Only about one-quarkr ot ConSUmelS
are receiving any oral information that could aid in reducing their chances of avoiding
preventable drug induced injury while almost threequarters of consumers are receiving
wriierl informatlon, though of doubtful quality.

        At the present rate Public Citizen estimates it will take pharmacists over 40 years
to provide the same proportion of consumers with oral information about the precautions
(26%) and side effects (23%) of their drugs as those receiving written information in 1996
(71%). We view It as highly unlikely that the.extent of oral counseling in pharmacies will
adequately address the problem of preventable drug induced injury in the foreseeable
future.                                            T-


        Because pharmacists can now distribute some form of written information to 71
permnt ot prescription drug consumer?, and consumers have already absorbed this cost
through higher prescription prices, responsible public health policy dictates that HCFA must
make its highest priority improving the poor quality of the information that is now being
distributed by pharmacists and ensuring that IO0 percent of Medicaid beneficiaries receive
useful written drug information meeting the guidelines of The Action Plan for the Revision
of Useful Prescrlpfion Mecfieine lnfomtafion as soon as possible.

WHO IS THE LAST LINE OF DEFENSE?

        This question was prophetically answered by John Gans, Execufiie Vice Presidient
of the American Phartiaceutical Association when he was quoated in the troubling U.S.
News & World Report investigation, “Danger at the Drugstore”8, that patients have little
choice but to look out for themselves and that ‘You have to manage your own care.” Until
a rational system of health care is adopted in the U.S., in the current chaos’of competing
corporations, health care consumers are the last line of defense against preventable drug
induced InJury.                                 ..

       This draft report cites two widely publicized studies**’ showing the extent that
pharmacists warn consumers of possibly fatal drug interactions. In the survey of 245
pharmacies in seven cities, more than one-half of the pharmacists failed to warn of
potentially serious drug interactions.b A similar survey conducted in Washington DC by
researchers from the Georgetown University Medical Center found that more than 30
percent of pharmacists filled prescriptions,for two potentially fat-4 interacting dtIJgs without
any warning.’ Clearly, the logic of consumer noncompliance with prescribed regimens as
a cause of adverse drug reactions is fallacious. If the pea@? participating in these two
studies had been actual prescription drug consumers and had been compliant with the

                                               4-
directions writ&   on their prescription containers the results may have been catastrophic.

        The Georgetown University study9 used prescriptions for terfenadine (Seldane) and
erythromycin to assess the extent that pharmacists warn consumers of possibley fatal drug
interactions. Of the 10 pairs of prescript&s filled without comment by chain pharmacies,
nine were accompanied by written information, Six of these nine suggested checking with
the doctor if terfenadine and eMtir0mycir-t were prescribed togethst. while three contained
the general statement, “Report any other drugs you take or diseases you have.” The
written information distributed by these nine pharmacists lacked the contextual information
nerzssary to adequately warn consumers of the seriousness of ,taKrngterfenadine with
erythromycin and thus is dangerous. Distributing written information that does not
adequately warn of a potentially life threatening risk can only be crxxidered as professional
dereliction by these pharmacists.
                                                     1
RECOMMENDATlONS

       The first recommendation of this draft report that State Roar& of Pharmacy
collaborate with the FDA by collecting written information distributed to prescription drug
consumers for quality evaluation by the agency is pointless. The FDA is required to
evaluate If the distribution and quality goals for us&~1 written drug Information mandated
by The Action Plan are achieved by 2000.

        Given the Department of Health and Human Services (DHHS) and the FDA’s stated
commitment to ensure that consumers will receive useful prescription drug information we
can find little purpose for the second recommendation, other than oral counseling must be
addressed, because of its ill advised inclusion in the legislation’4 establishing the process
that created The Action Plan, OBRA ‘90 was enacted seven years ago to address the
issue of oral counseling and has had minimal effect. When enacted, this legisl&tion
required that all Medicaid recipients receive an offer to counsel, and subsequently most
states required that all oonsumers also receive an offer to counsel by pharmacists. By
lowering the performance objective of 100.percent established in OBRA ‘90 to parallel the
distribution objectives for written information in’The Action Plan, 75 percent by 2000, and
extending a deadline that is already four years old to 2000 is tacit acknowledgment of the
failure of OBRA ‘90 to provide consumers with useful drug information.

       Following a recommendation made in The Actlon Plan, this draft report recommends
the convening of a national symposium on oral counseling by pharmacists to be facilitated
by HWA. However, HCFA need not follow recommendations that are unlikely to produce
a productive result. The obstacles to consumer counseling are well understood, but the
issue for consumers has remained for the past 17 years access to useful written
prescription drug information.
           Public Citizen recommends the following actions be taken by HCFA:

1. 	       Require that all Medicaid beneficiaries receive useful written prescription drug
           information meeting the agreed upon guldelines of The Action Plan with each new
           and refill prescription.

2. 	       Establish a deadline of January 7998 for meeting the distribution requirement. This
           would be one year after commercial information vendors agreed to The Action Plan
           guidelines for useful written drug information.

3. 	       Guarantee, strong independent oversight and quality assurance by the FDA. This
           would include giving the agency authoFityto remove written information not meeting
           The Action Plan guidelines from distribution and fining pharmacy owners and
           corporations for distributing written information not meeting The Action Plan
           guidelines.                                -1



Sincerely, 





Larry D. Sasich, Pharm.D., M.P.H., FASHP 

Research Analyst, 

Public Citiien Health Research Group. 





       .
    ENDNOTES       ..

    1.Throughout our comments we will define “useful prescription drug information” as
    information that enables the consumer to use the drug properly and appropriately,
    receive the maximum benefit, and avoid harm BSdefined in the Action Plan for the
    Provision of Useful Prescription Medicine Information presented to Donna E. Shalala,
    Secretary of the Department of Health and Human Sertices, December 1996.

    2. Action Plan for the Provision of Useful Prescription Medicine Information, presented
    to Donna E. Shalala, Secretary of the Department of Health and Human Services by
    the Steering Committee for the Collaborative Development of a Long-Range Action
    Plan for the Provision of Useful Prescription ‘Medicine Information, December 1998.

    3. Department of Health and Human Services, Food and Drug Adminisjration.
    Prescription drugs: patient package inserts requirements and draft guideline patient
    package inserts. federal RegisterVol. 45 No. 179, September 12,1980, page 60754.

    4. Avom J, Chen M, Hartley R. Scientific versus commercial sources of influence on the
    prescribing behavior of physicians. American Journal of Mecflcine 1982;73:4-8.

    5. Willoox SM, Himmelslein DU. Woolhandler S. inappropriate drug prescribing for the
    community-dwelling elderly. Journal of the American Medical Association ?994;272:
    292-296.

    6. Carlson AM, Morris LS. Coprescriptlon of terfenadine and erythromycin or
    ketoconazole: an assessment of potential hah. Journal of the American
    Pharmaceutical Association 1996:NS36:263-269 and Thompson D, Oster G. Use of,
    terfenadine and contraindicateddrugs. Journalof fhe Am&can Medical Associafion
    1996;275:1339-1341.                                                            .

    7. Moore TJ. Deadly Medicine, New York: Simon & Schuster; 7995.

    8. Headden S, Lenzy T, Kostyu P, Roebuck K,‘Locke L, Burgower Hordern B. et 31.
    Danger at the drugstore. U.S. News & WorjcfRepoti, August 26,1996.
.
    9. CavutO NJ, Woosley RL, Sale M. Pharmacies and prevention of potentially fatal drug
    Interactions. Journal of fhe American Medical Associafion 1996; 275:1086[letter].

    10. Sasich LD, Wolfe SM. Deficiencies in patient information leaflets concerning
    gastroi@testinal complications of nonsteroidal anti-inflammatory drugs. Journal of
    General Internal Medicine 1997;12(suppl 1):79[abstract], and Department of Health and
    t-luman Servlces, Food and Drug Administration. Prescription Drug Product Labeling;
    Medication Guide Requirements, Proposed rule. Federal Register Vol. 60, No. 164,
    August 24.1995. pages 44193 and 44104.


                                               -7-
1I. Public Citizen obtajned drug information leaflets from a Washington DC pharmacy
in late 1996 containing dangerous FDA disapproved-unapproved use information. A
leaflet for short-acting nifedipine capsules (Adalat, Procardia) contained use information
for hypertension. The use of short-acting nifedipine capsules to treat hypertensive
emergencies was disapproved by the FDA in 1985. Current approved labeling for this
drug warns in bold type that this form of nifedipine should not be used to treat
hypertension for safety reasons, A leaflet for bromocriptine (Parlodel) contained
information on the use of this drug to stop breast milk production in new mothers who
choose not to breast-feed, The use of bromocriptine for this purpose was disapproved
by the FDA because of heart attacks and strokes in young mothers.

12. Wynne HA, Long A. Patient awareness of the adverse effects of non-steroidal anti-
inflammatory drugs (NSAlDs). f3f#s!1 Journal of Clinical Phamtacology 1QQ6:42:25%
256.

13. Morris LA, Tabak ER, Gondek K. Counseling patients about prescribed medication:
1Zyear trends. Medical Care 1997 (in press).

14. Agriculture, Rural Development, Food and Drug Adminisfration, and Relafed
Agencies Appropriations Ad, 1997, PL 104-I 80 (August 6, 1996), fitle VI, Section 601,
Effective Medication Guides.
     American             2215 Ccnstitution Avenue. NW 

     Pharmaceuticat       Washmyton, DC 20037-2985                     The National Professional 

     Association          (202) 628-44 10 Fax (202) 783-235 1          Society of Pt7arrnacists 

                                                                --                              -



August 6,1997 


The Honorable June Gibbs Brown 

Inspector General 

Department of Health and Human Services 

5250 Wilbur J. Cohen Building 

330 Independence Avenue, S.Wi 

Washington, D.C. 20201        ’


Dear Ms. Brown: 


Thank you for the opportunity to comment on the draft report, State Pharmucy Boar& 

Oversighzof Patient Counseling Laws (OEI-Ol-9740040). 


This report is remarkably timely. The past year has seen an unprecedented surge in the 

attention given by the Congress, the Secret of Health and Human Services, the 

pharmacy profession, pharmacy store owners, and consumers themselves to the important 

problem of improving drug information provided to consumers. Your report is likely to 

contribute significantly to greater understanding of the need to solve this problem, and of 

the barriers that must be overcome before consumers can be assured of routinely receiving 

essential diug information from pharmacists. 


Mismedication as a National Problem. The report does a fine job of citing several key 

studies documenting the human and financial cost of suboptimal prescribing, dispensing, 

and patient adherence to their prescribed drug regimen. While it is customary to cite the 

most recent studies to establish the nature and extent of a social problem, this approach 

may inadvertently lead policymakers to believe this problem has been only recently realized 

by health services researchers. Nothing could be further from the truth. 


In fact, the great morbidity and mortality associated with poorly-managed pharmacotherapy 

has been documented in numerous studies for many years. For example, eight years to the 

day prior to the publication in Archives of Inter& Medicine of the paper entitled “Drug-

Related Morbidity and Mortality” by Johnson and Bootman, which reported the estimate of 

an expert pharmacist panel, JAMA published a similar estimate by an expert medical 

school panel entitled “Assuring the Quality of Health Care for Older Persons.” The JAMA 

authors placed the “adverse effects of drugs” among the top five greatest priorities for 

quality improvement in care of the elderly - along with four of the greatest sources of 

morbidity and mortality in our society: congestive heart failure, hypertension, pneumonia, 

and breast cancer. 


Citing some of this older research will help to establish the grim reality that public and 

private policy may fairly be criticized as producing much more talk lbarl action toward a 

solution. An annotated bibliography of severa such studies is provided as an attachment. 

Pharmacists as Counselors. One of the bright spots in this otherwise dismal picture of
persistent preventable morbidity and mortality has been the dramatically improved
performance of pharmacists in providing drug information to consumers. These
educational services are a promising part of any effort to reduce the human and fiscal cost
of mismanaged drug therapy. The pharmacist’s contribution goes far beyond the written
handouts discussed in the recommendations section of draft report.

Surveys performed at several intervals over the past fifteen years have shown direct
pharmacist counseling of consumers has improved from 20 percent in an FDA survey
conducted in 1982 (Federal Register, Volume 50, No. 164, page 44191) to 51 percent of
consumers responding to the National E%armacyConsumers’ Survey, conducted by the
American Pharmaceutical Association (APhA) in 1996.

The draft report is correct in its contention that these services, when provided, are
valuable. Some readers of your report may not be aware of the evidentiary basis for this
assertion, and for this reason we suggest that the report add numerous other citations to
studies that confirm the effectiveness of the pharmacist as a source of drug therapy patient
education and management. A brief annotated bibliography of several recent studies is
attached for your reference and use. Copies of these articles are available upon request.

Board Enforcement of Counseling Laws. Use of the “shopping” technique is a
potentially powerful tool for identifying inadequate counseling practices. The advantage of
this approach is that it can discover directly the experience of the typical consumer who
receives products and services in a pharmacy., if such “shoppers” are not identifiable as
such.

 “Shoppers” utilized for this purpose tiust be well-trained in counseling techniques, and
must be well-supervised, to ensure validity and equity in their findings. A critically
important aspect of such training should be in assessing the workplace circumstances of
pharmacist employees, who may simply be unable to counsel given the level of staffing and
the volume of dispensing they are required to perform by their employer. For these
reasons, it may be helpful for State pharmacy boards to have a “best practices” model to
inform  their efforts in making wise use of this quality monitoring tool. APhA has been
collaborating with the National Association of State Boards of Pharmacy (NABP) and
appropriate physician and consumer organizations to cosponsor a conference to debate and
develop guidelines, such as a model oral counseling assessment mechanism, and would
urge the OIG and the Department to provide financial support for this conference.

Finally, APhA believes it makes sense, given the scant resources of pharmacy boards, to
reserve such resource-intensive methods as “shopping” for investigating pharmacies and
pharmacists about which complaints h.avebeen filed relating to the quality of counseling
services.

                                             2
Regulatory pressure on pharmacies and pharmacists to increase patient counseling may
produce some small incremental reallocation of resources to improve pharmacist
counseling. But it would be a mistake to expect a “crack down” on pharmacists or store
owners to produce many benefits for the public because margins in the retail sector of
pharmacy are extremely thin and getting thinner for reasons beyond the control of the
pharmacist and many store owners. Already, financial pressures have forced
approximately a thousand indep&dent retail pharmacies to be sold or closed each year in
the early 1990s. even without the additional pressure of a call by regulators to reassign
pharmacists to counseling duties:

These realities are so broadly accepted as to be reflected not only in comments from store
owners and pharmacists but, as the draft report indicates, in comments from most
pharmacy regulators, who understand that the disincentives for counseling are formidable.
What is needed is a concerted effort by those representing all stakeholders to convince
payors, consumers, and store owners of the value of counseling services. The draft report
can play a stronger role in awakening public policymakers to these realities of the
marketplace.

Barriers to Patient Counseiing. The OIG report correctly identifies the three major
barriers impeding full implementation of section 4401(g) of the Omnibus Budget
Reconciliation Act of 1990 (OBRA ‘90).

Relative imnortance of the Barriers Identified bv the OIG. In presenting these, we believe
it makes the most sense to present these in order of the frequency with which they were
mentioned by the State pharmacy board officials surveyed by the OIG:

   (1) Economics of Pharmacy Practice (cited by about 75 % of respondents);

   (2) Limited Patient Demand (cited by about 60%); and

   (3) Lack of Resources for Enforcement (cited by just SO%,despite the direct incentive
   to emphasize this problem which might be ascribed to State board officials).

This sequence more accurately reflects State officials’ awareness of the fundamental
diseconomies dominating today’s marketplace which punish, rather than reward,
pharmacists for patient counseling activities. State officials understand that it would be
both inequitable and ineffective to attempt to reverse these powerful economic disincentives
solely by imposing ever greater financial or other civil penalties.
patlent Demand. APhA’s 1996 National Pharmacy Consumer Survey assessed the views
of a random sample of over 980 consumers who reported at least one visit to a pharmacy in
the preceding six months. The survey validates to some extent the State board officials’
perception that there is limited consumer demand for pharmacist counseling services, but
paints a somewhat more complex picture. Consider the following evidence from the
survey:

� 	   The most important reason given by cousumers for choosing their pharmacy is
      “convenience” (37% of respondents) - specifically, how close the pharmacy is to home
      or work (33%): This is more than twice the percentage identifying either “price”
      (18%) or ‘service” (16%) as the reason for their choice of pharmacy.

� 	   Results from this survey revealed that between 76% and 93% of consumers believe that
      their needs for most dispensing-related services are already being met by their
      pharmacist. This high level of satisfaction with-the current level of pharmacists’
      service indicates consumers believe pharmacists are already providing essential
      counseling services when these are needed, and may feel no need to ask for what is not
      already being provided.

� 	   The survey does provide some evidence that about 20% of pharmacy consumers desire
      more contact with their pharmacist to discuss their prescription drug therapy, but
      significant barriers interfere with their obtaining these services:
 b

         Nearly half of those expressing a desire to have greater access to their pharmacist
         are daunted by the perception that the pharmacist is “too busy” to speak with them.

         Over one-third of consumers have difficulty distinguishing pharmacist(s) from other
         pharmacy personnel.        I

         Finally, the services consumers most often report they’d like to receive from the
         pharmacist are the services least likely to be performed at the time of dispensing:
         About 70 percent of consumers want the pharmacist (1) to remind customers by
         mail or telephone that it is time to have a prescription refdled, and (2) call to find
         out how the prescription is working. This suggests the greatest unmet demand for
         pharmacist counseling services are those which are provided to the consumer while
         they are not in the pharmacy.

� 	   Relatively few consumers are willing to pay the entire cost of enhanced counseling
      services out of pocket, suggesting that these services will not be used at an optimal
      level by the consumer until the expense is covered by health plans in the same manner
      as other health care services;


                                               4
The National Pharmacy Consumers’ Survey does supply evidence that most cousumers are
open to a more intensive level of service from their pharmacist. Over two-thirds of
consumers would view “somewhat favorably” or “very favorably” a new, higher level of
service in which the pharmacist would provide more counseling before and after the filling
of prescriptions, as well as engage in greater interaction with their physician to facilitate
any needed adjustments to their drug regimen. Fully 31% of pharmacy consumers
expressed a willingness to switch pharmacies to gain access to this higher level of service,
if there was no cost to the consumer.

Economic_Barriers.                          The report accurately depicts the dilemma of
pharmacists and their employers in the current marketplace. There are two major
economic barriers standing in the way of consumers receiving more and better counseliug
from their pharmacist. Both are the result of drug pmducf reimbursement reductions that
are squeezing pharmacist counseling services out of the pharmacy. These barriers deserve
more explanation in the report, even though it is unlikely that the market will embrace
higher drug product reimbursement as a solution. -

In the past, pharmacists were able to finance patient counseling activities from the margin
they received from selling pharmaceuticals. Demands from within the profession and from
the Federal and State governments for greater pharmacist counseling have coincided with
the increasing domination of the market by third party payors, who have been increasingly
successful in demanding drug product discounts from pharmacists. By 1995, a senior Blue
Cross/Blue Shield Association official was able to report that reduced reimbursement to
pharmacies accounted for fully 60% of all savings achieved by the Association in managing
the drug benefits offered through the Federal Employees Health Benefits Program
(FEHBP).

Such reimbursement reductions inevitably spur changes in pharmacy practice. In a market
dominated by slim and declining margins, pharmacies that can dispense more prescriptions
per hour are economically advantaged over those which cannot. Pharmacies where
pharmacist employees spend time on non-revenue generating counseling of patients can
only expect to benefit if patients select that pharmacy on the basis of service - which the
draft report has correctly identified as an area of soft consumer demand.

One remedy for this situation would be for private and public sector payors, such as the
Federal and State governments - through the FEHBP, State employee, Medicare, and
Medicaid programs - to pay for some or all pharmaceutical care services. Data from the
Washington State Medicaid Drug Use Review demonstration project show that paying
pharmacists for counseling activities easily pays for itself out of drug product costs alone
if payment is tied to documented, clinically necessary changes in drug therapy which have
been suggested to the physician by the pharmacist. Additional savings from reduced
morbidity and mortality may reasonably be expected, though that demonstration project
was not designed to capture evidence of such savings from reduced health care utilization.
A large controlled study done by the University of-Southern California and Kaiser
Permanente (publication pending) found that either of two different models of pharmacist
counseling significantly reduce hospitalizations compared to the control group. The two
models of pharmacist counseling were the “OBRA ‘90” counseling model and Kaiser
Permanent&s own counseling program, in which pharmacists are instructed to focus
wunseling efforts on high risk drug products and related patient populations.

Patients who received “OBRA ‘90” counseling services from Kaiser pharmacists were
interviewed for the USC/Kaiser study about the frequency of wunselii they received.
These patients reported receiving “OBRA ‘90” counseling interventions at over twice the
rate of patients served in community pharmacies during the course of the study. It appears
that these Kaiser pharmacists, serving under the same legal obligations as their professional
colleagues in community pharmacies, provided a substantlally higher level of service.
Why? The most likely explanation for this is that Kaiser pharmacists enjoyed a significant
infusion of resources in the form of more technicians and management encouragement and
support for counseling. Financial incentives support effective counseling by Kaiser and its
employee pharmacists, inasmuch as staff receive bonuses if their efforts result in reduced
preventable health care utilization.

The existence or absence of financial incentives for pharmacy owners and pharmacists has
a powerful impact on whether certain pharmacy practice innovations produce more
counseling service, or simply result in reduced professional staffing. For example, the
draft report suggests that increased use of technicians, as well as automation of the
dispensing aspect of pharmacy practice, can theoretically free up the pharmacist to provide
counseling services. This is certainly true, however, if the owner of the pharmacy does not
realize revenue from the services of the pharmacist, the owner has an incentive to replace
the pharmacist with automation and/or technicians and pocket the savings, rather than
continue to pay the pharmacist to provide unpaid drug therapy management to consumers.

A related barrier deserving mention and follow up study is that some State pharmacy
boards limit, by regulation, the USCof technicians that might be used to free up the
pharmacist for counseling services.

Additional Studies on Economic Barriers. Several studies confirm the impression of the
State pharmacy board executives surveyed by the OIG that there are significant economic
barriers to pharmacists spending time with patients. These studies should be cited in the
report:

� 	   Barnes et al, in a 1996 survey of 400 pharmacists published in The Annals of
      Phamcotherupy found that the most significant barriers to implementation of the



                                             6
      OBRA ‘90 patient counseling requirements were (1) excessive workload; (2) lack of
      financial compensation; (3) patients’ attitudes (e.g., lack of interest in counseiing).

� 	   Rupp et al, in a 1992 study published in Medical Cure, documented that there is a
      statistically significant inverse relationship between greater volume of prescriptions
      dispensed and the amount of pharmacist .oversight and counseling of those
      prescriptions. The authors noted in this study:

         “this fmding suggests that pharmacists’ willingness or ability to intervene in
         problematic new prescription orders decreases as the volume of prescriptions they
         dispense per hour increases. ”

�     According to the May 8, 1995 issue of Forbes magazine, “the growing power of
      [insurance plans] to dictate the price of prescription drugs has slashed retail pharmacy
      gross margins to 25%) from 35% in 1989. That’s $5.5 billion carved right out of
      operating profits. ” Declining per unit profits create a powerful incentive for pharmacy
      owners to increase volume and improve the productivity of their employee pharmacists
      in performing those activities for which the store receives revenue. Thii directly
      affects the time available for counseling.

� 	   Results from the 1996 APhA National Pharmacy Consumers’ Survey indicate that
      nearly 60% of those desirjng greater access to their pharmacist reported that these
      health professionals appear “COObusy” to talk with them.

Additional Recommendations Regarding Federal Govetnment Action. The draft report
properly notes that there is a substantial Federal interest in improving the quantity and
quality of pharmacist counseling of consumers. The draft recommendations fall short of
addressing the key economic incentives discussed in the body of the report, however.
APhA has several additional recommendations to suggest, described below.

(a) Federal Costs Associated with Drug-related Morbiditv & Mortality. An important
Federal interest which is not mentioned is the cost of s&optimal drug therapy which is
charged to Medicare, Medicaid, FEHBP, CHAMPUS and other insurance or health plan
arrangements sponsored or financed by the Federal Government. Although the report
mentions the scientific and clinical literature (in&ding estimates from FDA) which
estimate substantial costs associated with preventable drug-related morbidity and mortality,
these costs should be projected to the large patient populations covered under these health
care programs, even if these estimates are only based on the approximate drug utilization of
these populations.




                                                7
 (b) Economic Incentives to Counsel are Annronriate and Timelv. APhA believes the OIG
 report should recommend that fee for service programs, beginning with those operated or
 funded by the Federal Government, provide financial incentives for these services as well.
 These payments couid be conditioned on documentation that a prescriber has accepted a
 clinically-relevant drug therapy change recommended by a pharmacist. Such a program
 could be put into place today, using existing electronic claims coding standards. The entire
 objective of such a program should be to reduce drug-related morbidity and mortality in
 key populations of interest to the Federal Government, such as older Americans.

  (c) Oral CounselinP Obiectives bf the Secretarv. The draft report discusses the,HHS
  Secretary’s support for increased distribution of written information to pharmaceutical
  consumers. It is important to note that the Secretary has for several years embraced the
  Health People 2000 goals, which were updated in 1995 to call for -

         “[Objective 12.81 Increase to at least 75 percent the proportion of people who
         receive useful information verbdy and in writing for new prescriptions from
         prescribers or dispensers. ” [emphasis supplied]

  APhA believes this report will help encourage pharmacy boards, consumers, pharmacy
  owners and pharmacists to begin an unprecedented cooperative effort to enhance the quality
  and frequency of pharmacist service received by the public. Once again, thank you for
  your consideration of the views of America’s pharmacy profession.




\L9l(n A. Gans, PharmD
  Executive Vice President

  Enclosures
  JAGldgs




                                               8
American                 2215 Constitution Avenue. NW 

Pharmaceutical           Washinglon, DC 20037-29%                   The National Professional 

Association              (202) 628-4410    Fax (202) 783-2351       Sociefy of Pharmacists



      OLDER AMERICANS NEED PHARMACEUTICAL                          CARE SERVICES

 PROBLEM: Preventable drug related problems inflict substantial morbidity and
 mortality, costing Medicare, employers, and health insurers biIIions every year.

           Drug-Elated morbidity and mortality are estimated to cost $77 bihion in the
           US. each year. -- Archives of Internal Medicine, October 1995.

           Adverse drug events are among the top five greatest and most preventable
           threats to the health of elderly Americans, after Congestive Heart Failure,
           Breast Cancer, Hypertension, & Pneumonia. -- JAMA, October 1987.

           Twenty-eight percent of hospitalizations of elderly Americans are due to
           noncompliance with drug therapy (1 I %) and adverse drug reactions (17%). --
           Archives of Internal Medicine, April 1.990.

           Patient compliance with drug therapy deteriorates as the number of drugs taken
           by the patient increases. Because 25% of the elderly use three or more drugs
           daily, the elderly are particularly at risk. -- The Gerontologist, March 1994.

           Of elderly patients taking three or more chronic prescription drugs, over one-
           third are re-hospitalized within six months of discharge from a hospital. Twenty
           percent of readmissions are due to drug problems, principally undertreatment,
           noncompliance, and adverse drug reactions. -- Medical Care, October 1991.

           32,000 senior citizens each year suffer hip fractures from falls caused by
           adverse drug events. - New England Journal of Medicine, February 1987.

           The inappropriate use of prescription drugs is a potential health problem that is
           particularly acute for the elderly. The U.S. General Accounting Office analyzed
           1992 Medicare data and found that about 5.25 million of noninstitutionalized
           elderly Medicare enrollees used at least one drug identified as generally
           unsuitable for elderly patients given that safer drugs exist. - GAO, July 1995.

           In an average year, 32,800 people die from pneumococcal disease and 20,000
           die from influenza-almost all elderly. Medicare spends as much as $1 billion
           for treatment of influenza-associated diseases each year. Seventy-three percent
           of the elderly have never been immunized for pneurnococcal pneumonia; 49%
           of the elderly have not been vaccinated against infIuenz.a. -- GAO, June 1995.

           Infhrenza vaccination reduced hospitalization costs an average of $117 for each
           of the 41,418 elderly people immumzed during a three year period. - The New
           England Journal of Medicine, September 1994.

 PROBLEM: Perverse incentives. Until pharmacists are paid for pharmaceutical care,
 their livelihood depends on faster dispensing of prescriptions, making it uneconomical
 for them to spend time with patients & physicians solving drug therapy problems.
         .-                                                                           2

 PHARMACEUTICAL CARE IMPROVES PATIENT CARE AND OUTCOMES

0	   Pharmacist teaching and monitoring of drug therapy in a group of African-
     American asthma patients reduced emergency department (ED) visits by over
     70% and hospitalizations by 80%) compared with no significant reduction in ED
     visits and a 50% reduction in hospitalizations in a control group receiving “usual
     care from local physicians. ” [Kelso TM, et al, Am Jml of Med Sciences, June
     lf=l
0	   Asthma patients who are high users of hospital emergency departments
     experienced an 80% decline in ED visits after ongoing pharmacist counseling.
     [Pauley TR, et al, Annals of Pharmacotherapy, Jan 19951

0	   Geriatric consumers, who account for about 30% of drug use in the U.S., were
     able to reduce the number of drugs taken and achieve significantly better
     compliance with their drug regimen after counseling by pharmacists, with no
     increase in costs. [Lipton HI,, and Bird JA, Gerontologist, March 19941.

0	   Ambulatory patients used significantly fewer health services, saving over $640
     a year in health costs per individual, as a result of comprehensive pharmacist
     counseling, [Borgsdorf LR, et al, Am Jrnl of Hosp Pharm, March 19941.

0	   Community pharmacists counseling patients identified and resolved problem
     drug therapy in -2% of new prescription orders, with about 28% of these
     judged capable of causing “patient.ham” if the pharmacist had not intervened.
     [Rupp MT, et al, Medical Care, Ott 19921.

0	   Physicians accepted about 83% of pharmacists’ recommendations for drug
     therapy changes in an ambulatory care clinic. For 80% of recommendations,
     “improvement or resolution of a patient’s disease state” occurred. cost
     reductions were noted. [Lobas NH, et al, Am Jml of Hosp Pharm, July 19921.

0	   Medicare would realize net savings of $280,000, 139 hospitalizations, and 63
     deaths per 100,000 errrollees each year if it paid pharmacists to advise enrollees
     to be vaccinated for influenza, according to an estimate based on an experiment
     in North ~Carolina. [Grabenstein JD, et al, Medical Care June 1992.1

0	   The addition of a clinical pharmacist to a hospital-based geriatric clinic reduced
     the number of medications associated with an adverse drug reaction by 42%,
     and produced direct cost savings of $54/patient, in the first six months.
     (Phillips SL, Carr-Lopez SM. Am Jrnl of Hosp Pharm, May 19901

0	   Hypertensive patients who received pharmacist counseling were more compliant
     with their treatment, and achieved better blood pressure control, than a control
     group. [McKenney JM, et al, Circulation, Nov. 1973; McKenrtey JM, et al,
      .-                                                                          3

     Contemp Pharm Pratt, Fall 19781_

0	   Relative to a control group, diabetic patients who received pharmaceutical care
     were more compliant in keeping clinic appointments, made fewer medication
     errors, saw symptoms improve in 5 of 8 variables measured, and had a lower
     incidence of.hospital admissions and “medical contacts”. [Sczupak CA, Conrad
     WF, Am Jml of Hosp Phaxm, Nov 19771.
                                       National     Association      of Chain    Drug Stores

Thomas &I. Ryan                 ..
Chairmnn   of the Board

Ronald L. Ziegler
President & CEO



              June 30,1997 


              The Honorable June Gibbs Brown 

              Inspector General 

              United States Department of Health and Human Services 

              Room 5250 Cohen Building 

              Washington, DC 20201 


              RE: OEI-0 l-97-00040 


              Dear Ms. Brown: 

f
f
              On behalf of the National Association of Chain Drug Stores (NACDS), I am pleased to 

              include the attached document which provides our perspectives on the drat? report, “State 

              Pharmacy Boards’ Oversighis of Patient Counse&g Laws. n We appreciate the 

              opportunity to comment on this draft report. 


              NACDS membership consists of more than 130 retail chain community pharmacy 

              companies. Collectively, chain community pharmacy accounts for the largest component 

              of pharmacy practice with over 86,000 pharmacists. Chain community pharmacy is 

              comprised of 18,500 traditional chain drug stores, over 6,000 supermarket pharmacies 

              and nearly 5,000 mass merchant pharmacies. The NACDS membership base operates 

              nearly 30,000 retail community pharmacies with annual sales totaling over $110 billion in 

              prescription drugs, over-the-counter (OTC) medications and health and beauty aids 

              (HBA). Chain operated community retail pharmacies fill approximately 6(! percent of the 

              more than 2.5 billion prescriptions dispensed annuahy in the United States. 


              Thank you for the opportunity to comment on this report. Please call on us if we can 

              provide any additional information to your office about this or other issues. 


              Sincerely, 





                                                  Officer




      413 North Lee Street, P.0. Box 1417-D49, Alexandria, Virginia 22313-1480       Phone: 703-549-3001   Edx’ 703-836-4869
   COMMENTS OF THE NATIONAL ASSOCIATION OF CHAIN DRUG STORES 

                           DRAFT REPORT 

 “STATE PHAkpvlACY BOARDS’ OVERSIGHT OF PATIENT COUNSELING LAWS” 


General Overview

Consumers of prescription medications are entitled to a meaningfui offer to be counseled,
consistent with state law. Interaction with the pharmacist should help consumers better
understand how to take their medications.

NACDS also believes that consumers are entitled to receive comprehensive written information
about their prescription medications that reinforces and supplements the oral information
provided to the consumer by health professionals. Such written information can also serve as a
reference source for the consumer during the course of prescription use.

The OIG report clearly identifies current issues relating to state board of pharmacy enforcement
of patient counseling laws. However, NACDS believes that the report describes the situation as
a “glass half empty” rather than a “glass half full.” While there are clearly strides to be made in
improving the quality and quantity of oral counseling, FDA’s own data illustrate the progress
that has been made to.date by pharmacists in providing oral counseling to consumers.

While the oral counseling provisions were included in Medicaid legislation enacted in 1990,the
law required that these provisions take effect January 1,1993. Since that time, consistent and
appreciable strides have been made in improving the quantity and quality of oral counseling. In
fact, FDA reported that 32 percent of consumers reported that they received oral counseling in
1992, which increased to 42 percent in 1994and 47 percent in 1996.

Therefore, substantial progress in complying with oral counseling laws has already been made by
pharmacy in just three short years, in spite of multiple challenges to the development of this
practice. As with any significant and substantive change in the practice of a health professional,
a period of adjustment must be expected by all parties involved, including consumers.
Moreover, the success of oral counseling depends upon a complex dynamic of multiple factors in
the health care system working well together. These include boards of pharmacy, pharmacists,
consumers, pharmacy benefit managers (PBMs),and other thii parties, all of whom have a
vested interest in its success, and all of whom have to contribute to making it successful.

The practice, economic and social barriers and challenges that must be addressed to increase
m&.ningful oral counseling by pharmacistsare described below.
     .
      ce m:           Many state boards impose outdated and antiquated practice requirements on
pharmacies, requirements that shift pharmacists’focus to prescription dispensing rather than
consumer interaction. That is, many state boards impose unrealistic technician-to-pharmacist
ratios, and some states require that only pharmacistsperform non-judgmental tasks that could be
performed by well-trained technical personnel. NACDS is working to revise these antiquated
and outdated practice acts so that pharmacistscan spend more time with consumers on such




                                National Association of Chain Drug Stores
                                              June 27.1997
                                                  Page 1
activities as oral counseling. This movement will also be facilitated by the evolution of
automated pharmacy dispensing systems.

An additional practice barrier is the fact that pharmacists are often unaware of the intended use
of the prescription medication, or the patient’s diagnosis. Knowledge of the prescriber’s
intended use of the drug would facilitate the interaction between the pharmacist and the
consumer, especially when the drug is being used for an off-label use.

To facilitate and encourage oral counseling, many chain pharmacies are restructuring their
prescription departments to provide a private area for the consumerto talk with the pharmacist
about the medication.
        .
B~hallenges:           We concur with the draft report’s fmding that a significant obstacle to
providing oral counseling is the economics of pharmacy practice, where, according to the report,
“payers are squeezing operating margins.” When OBRA 90 was enacted, no additional
provisions for payment were provided to states to defray pharmacists’ costs of providing
counseling to Medicaid recipients, essentiaily resulting in an unfunded mandate on pharmacists
and the states.

As the report also indicates, OBRA 90 vested the enforcement of these new laws with the states
without providing for additional resources. In addition, most states extended the counseling
requirements to non-Medicaid recipients, meaning that the unfunded mandate was extended in
most states to all pharmacy consumers, not just Medicaid recipients.

At this point, almost 70 percent of all prescriptions are paid for by third party plans. These plans
are paying pharmacies less per prescription, not more, and are squeezingpharmacy margins. In
almost all cases, third-party plan reimbursement, including Medicaid, does not even compensate
pharmacies adequately for the cost of filling the prescription, much less for providing
counseling.

In 1991, before the pharmacy counseling provisions were implemented, HCFA found that the
average cost of dispensing a Medicaid prescription was about $5.50. This amount did not
include the cost of counseling. In its final rule implementing the patient counseling guidelines,
HCFA itself indicated that the cost of a counseling session was about $2.50-$3.00.

When the HCFA-estimated additional costs of counseling are addedto the cost of providing the
prescription, it increases the cost of dispensing to, on average $838.50 per prescription, well
below the current average per-prescription Medicaid payment to pharmacies. At this point,
Medicaid’s average dispensing fee per prescription has declined by 14.4%in 1996 inflation-
adjusted dollars from $4.93 in 1991to $4.22 today. This underscoresthe economic challenge to
the provision of oral counseling by community retail pharmacies.

Consumer Cu:           Consumers need to better-understandand appreciate the value of the
pharmacist in helping them manage their medications. Physicians and other health care
professionals also have to sensitize consumersto the need to obtain as much information about
their medications as possible, including through oral communications.


                                National   Association
                                                     of Chain   Drug Stores
                                               June 27,1997
                                                  Page 2
Consumers can also help their own cause by demanding that their health benefit plans cover the
cost of pharmacists providing oral counseling as a part of the prescription drug benefit.
Unfortunately, third party prescription benefit plans continue to focus on reducing
reimbursement for the product cost.

Instead, health benefit plans and PBMs should adopt reimbursement policies that encourage the
delivery of pharmacy services which reduce overall drug expenditures through better drug use.
Community pharmacy is eager to work with consumer and patient advocacy groups to increase
consumer demand for oral counseling at local pharmacies.

Response to OIG Suggestions

NACDS would like to offer brief comments on the suggestions made by the OIG in its draft
report relative to methods to improve oral counseling. NACDS is participating with almost
every other national pharmacy organization in cosponsoring a national symposium on pharmacy
oral counseling. The symposium is scheduled to be held this fall, which will help implement
part of the “Action Plan for the Provision of Useful Prescription Medicine Information.”

This plan was developed in lieu of the MedGuide action plan proposed by the FDA. This                  .

upcoming symposium will assess the current array of pharmacy oral counseling guidelines,
evaluate the need for any refinement to these guidelines, and seek to develop an action plan to
address many of the challenges to the further provisions of oral counseling as described above.

NACDS has serious reservations, however, about other recommendations made in the report that
would prescribe a broader role for the Federal government, notably HCFA and FDA, in setting
performance objectives for oral counseling.by pharmacists, as well as-Federaloversight of such
counseling. NACDS believes that the regulation of the practice of pharmacy is the purview of
the states. Any additional performance objectives-orstandards that are needed, including any
necessary oversight mechanisms, should be developed by the state boards of pharmacy in
conjunction with the profession of pharmacy.

It is important to recognize that, while an increase in the quality and quantity of oral counseling
is a goal that is desirable and achievable, any further efforts to establish additional standards or
oversight must be accompanied by an equally-committed and forceful effort to address some of
the challenges that currently impede the further development of oral counseling.

uk/govtlfdaloigrptZ!




                                National Association of Chain Drug Stores 

                                              June 27,1997 

                                                  Page 3 

                                                         June 13, 1997


                               June Gibbs Brown
                               Inspector General
                               De artrnentof Health & Human Scrviccs
                               Wilbur J, Cohen Building, Suite 5250
                               330 Independence Aye,, SW          __
                               Wasbingtoa, D.C. 20201

     Nations1                  RI3: Draft inspection report, “State Pharmacy Boards’ Oversi ht
5   COMMUNITY                       of Patient Counselmg Laws.” Q$&Z-W~~
    PHARMACISTS
    Association                Dear Inspector General, June Gibbs Brbwn:
                               We agree with your basic premise that effective oversight can help foster the
                               intent of the federal and statt atient counseling laws. We commend your
                               office for doing this study anB our rccognitlon that proper use of mcdicino is
                               a major ublic policy Issue, d t also agree with your view that hatznacists
                               arc In a Eey role towsprc the appropfiatouse of medication, bo % tllrough
                               identifying and correcting prescri tlon errors, and tirough effective
                               intcruction wlth patients to foster e Cttcrpatient understanding and UN qf
                               mcd)Ane. Incidentally, several studies have documented the cost of
                               inappropriate medication well in excess of $100 million a year noted in ybur
                                report, (See attached.,Thc?6 Billion DoZlurQueslk)
                               The oversfght of the non-Medicaid laws, of course, rests exclusive1 with thp
                               state pharmacy boards. Your investigation h,u determined that “tic %
                               enforcement of the laws has been minimal”, We belleve it is pattlculqrly
        NCPA                   important that your investigation o$obstacles to effective pharmacist
    2Of Ihngedeld Road         counseling found that the pr@cipIebarrier was “limited reimbursemcpt for
     Aknndrla.Vlqinb           counseling service-s.”The Prescription Infomlation Actioh Plan ap roved by
        12314.2885             Secretary Sbalala, at page.33,conclu,desthak.“third-party payers Pmcluding
         phone                 government agencies) should consider the health care and economic benefits
       703.683.8200    *   ,   they will likely receive due to improved oral and written comxnunkation and
           rbx                 arc strongly encouraged to provide paym$nt lp health care professionals for
       703.683.3619 	          providing these services.” Your departmenthas a wide range of optibns
                                available to help facilitate the removal of this principlebarrier to more effective
                                patlenl counseling.
                                Another particularly enlightenjng aspect of your investigation is’that 94% of
                                the state pharmacy boardsindicated that their stat0had no contlnulng
                                education requircqents specifically inlended to help pharmacists conduct
                                  aticnt counseling; Under thcpmspective drug review provisions of the 1990
                                R edicaid amendments,each state’sprogmp Is required LOconduct a&c and
                                ongoing educational outreach pro.gra& to educatepractltioncrs, ph,umacists



                                                                                                       I   -0,   *.a   \=.   I.   f’   4.   a.   *I*..   . .   .   .
InSpector   General   Brown
Page TWO 

June 13, 1997 



and doctors, on comnion drug therapy problems. We recommend that your 

department encourage slate Medicaid progMmsthrough funds made av$labIe 

lo state pharmacist association
                             ; ‘iddonductthe
                                  .B          ieleitant
                                               I.       continuing edudatloh
programs.                             .
                                                                      .-
Considering your finding that lack of patient knowledge about the counseling 

requirement is aIso a major obstacle; 1t would seem that similar Medicaid 

patient education programs would be appropriate. Of course the development 

of state standards called for in the ‘90 amendments could help achieve these 

and other objectives, 

The planning for the National Symposium on Oral Counseling by pharmacists 

called for in the Secretary Shalala’s Prescription Information Action Plan is 

well underway. In fact, several weeks after the plan approval, we hosted a 

meeting of the CEOs of Qe major national pharmacy organizations where a 

consensus was developed in support of convening the private sector 

sponsored symposium. 

The Center for Drugs and Public Policy has been contracted to assist with the 

symposium, and recently an advisory commitlee met in our offices to help 

assure that consumer, private third-p&ty payor and other intercstcd parties am 

involved both in the development of the program and participation ?t *the 

s m oslum which will be held September 19-21 at the Landsdowne 

  on erence Center in Leesburg, Virginia. (SC&eliclosed related ma$~@Is), It 

EY

is pLarlicuIarlyexcitiag ‘tosee all of pharmacy supporting this effort. 

HCFA is encouraged to designate a representative for the Advisory 

Committee and to suggest appropriate individuals to the Center on Drugs and 

Public Policy to participate aethe symposium. It is important, however, to 

note that while support for the symposium by HCFA is important, it is a ’ 

private sector pharmacy Icd initiative 

Incidentally, the purposes of the symposium include an assessment of 

guidelines as noted in your rep&t (see B-2), but are per Secretary Shalakb’s 

Prescription Information Action Plan more comprehensive: 

� the effectiveness of current oral counseling guidelines relating to 

prescription medicines 

  identication of “best practices” for oral counseliig 

 � 

  sug estions for refincmcnt to current guidelines, if needed, with rcfcrral to 

 � 

State t oards of pharmacy. 

  strategies to reduce the economic, pradice, and social barriers’relating to 

 � 

provldlng useful oral information about prescription medicines. 

                                                 . .
Inspector Genera1Brown 

June 13, 1997 

Page Three 



Regarding the FDA, WCcertainly support their involvement in an assessment 

of the “usefulness” of written information Provided to patients and would 

encourage a similar assessment of ‘*&en mformation provided by the boar& 

of pharmacy to pharmacists.                                          .-


Again, thank you for the 9 ortunity for community pharmacy to comment 

on this report, and its signupicant findings. We stand ready to assist your 

department in taking meaningful steps to address the findings. 





CXdj 

Enclosures 

    $
    El          AMERICAN SOCIETYOF HEALTH-SYSTEM
                                              PHARMACISTS
              . Pharmacists41healthsystems helpingp                t uqf   medications
                                                                                             ,. , -.,.
                                                                                                                        _--


    July lo,1997 


    Ms. June Gibbs Brown 

    Inspector General 

    Department of Health and Human Services 

    5250 Cohen Building 

    330 Independence Avenue, S.W. 

    Washington, DC 20201 


    RE:      Draft Repoti, “State Pharmacy Boards’ Oversight of Patient Counseling Laws.”

    Dear Ms. Brown:

    The American Society of Health-System Pharmacists (ASkP) appreciatesthe opportunity to comment on
    this draft report. ASHYis the 30,000-membernational professional organization that represents phar­
    macists who practice in hospitals, health maintenance organizations, long-term care facilities, home care
z   organizations, and other components of health care systems.

    As a long-time proponent of patient counseling, ASHP has a particular interest in the subject matter of
    the draft report. Because of its strong commitment to patient counseling, ASHP has taken an active role
    in supporting this aspect of patient care as part of iti mission to help pharmacists provide pharmaceutical
    care that results in positive patient-care outcomes. In the 197Os,ASHP established “Guidelines on
    Pharmacist-ConductedPatient Counseling.” These guidelines have been revised and expanded over the
    years, and a copy of the most recent (1996) revision is enclosed. The guidelines indicate AMP’S
    commitment to the principle that pharmacists should educate and counsel all patients to the fullest extent
    possible, going beyond the minimum requirements of laws and regulations. Anything less is inconsistent
    with pharmacists’responsibilities and talents.                                                   .

    ‘Ibe importance of informing consumers about the vital patient care role of pharmacists and expanding
    efforts to preventmedieation emors and other drug-related problems are also prominent portions of our
    1997-1998Leadership Agenda (also enclosed). ASHP has provided input to state boards of pharmacy
    when those boards develop patient-counseling rules. ASHP was represented on the steering cO~i&%
    that developedthe ActionPlanfor the Provision,of UsefirlPrescriptionMedicine Informationthat was
    approved by Secretary Shalala in January of this year. And ASHP is one of the eight organizations
    planning and providing funding for the National Symposium on Oral Counseling that was called for by
    the Action Plan.     I

    We shardd the executive summary of the report with our Board of Directors and leaders of our Afftliated
    State Societies. The comments below are partly a result of the responsesreceived from these members.

    BACKGROUND SECTION (Pages l-3 of the Draft Report)

    Page 1 of the report states that pharmacists can help patients “as a last line of defense, to identify and
    correct prescription errors” and “in a proactive manner to foster better patient understanding and use of
    prescription drugs;” ASHP encourages the Inspector General to stress pharmacists’proactive and pros­
    pective abilities for intervention as a vital and productive member of the patient care team.

    ?272’WlSCONSIN   AVENUE    I   BETHESDA,MD   20814   m 301-657-3000      m FAX: 301-652-8278         m   www.ashp.org
Ms. June Gibbs Brown
July 10, 1997
Page 2               ..


FINDINGS SECTION (Pages 4-7 of the Draft Report)

While ASHP is in general agreement with the findings of the inspector General contained in the draft
report, we would like to bring the following concerns to your attention:

Although the data used to prepare the draft report came primarily from a survey of state boards of phar­
macy conducted as recently as November 1996to January 1997,we would argue that the information
from your survey is not completely accurate and up-to-date. For example, a coalition of pharmacy
groups in Illinois has been working with that state’sBoard of Pharmacy to establish rules and regula­
tions enhancing pharmaceutical care and patient counseling. In May of this year, the Illinois Board of
Pharmacy accepted the coalition’s recommendations for revising that state’srules for patient counseling.
Although the state board’sadoption of these recommendations is only the first step in the process of
establishing better patient counseling rules in Illinois, and implementation of those rules cannot occur
without the appropriate infrastructure and funding, it is an example of how state pharmacy organizations
are dealing with the problem.

Pharmacy organizations in other states have had similar successes. Through the work of pharmacy ’
groups in Texas within the last three months, that state has expanded its counseling requirements to
include a once-a-year consultation on refills and maintenance medications, but this has not been enforced
yet due to its recency. Texas pharmacy groups are currently holding meetings to discuss the affect phar­
macists’working conditions have on their ability to offer counseling.
      .
ASHP applauds these efforts by state pharmacist organizations and state boards of pharmacy to improve
the dissemination of medication information to patients. We suggest that the Inspector General conduct
follow-up surveys to determine what recent and on-going efforts have been initiated to solve the prob­
lems noted in the draft report.

Pharmacy Boards’ Enforcement of Counseling Laws

ASHP agrees with the finding, noted on page 5 of the draft report, that board of pharmacy enforcement
of counseling laws has been minimal.. This is due, partly, to differences in how pharmacy boards deal
with complaints and implement enforcement of state laws and regulations, a factor that the draft report
does not seem to address. In addition to dierences in how pharmacy boards implement enforcement of
pharmacist counseling, there are differences, as noted on page 6 of the draft report, in how punitive
boards are. Some are-funded solely by the fmes they issue, and these may be more inclined to carry out
enforcement procedures.

ASHP believes strongly that implementation and enforcement of pharmacy practice laws and regulations
should be left up to the individual states, and we recommend that a study or studies be conducted to
determine what factors, related to state board of pharmacy operations and funding, have a positive
influence on effective enforcement of counseling laws.
  Ms. June Gibbs Brown 

  July 10, 1997 

  Page 3 



  State Boards’ Identification of Obstacles to Implementing Patient Counseiing Laws

  Lack of Resourcesfor Enforcement

  ASHP agrees that state boards of pharmacy lack sufficient staff and funding to investigate and enforce
  federal and state counseling requirements. While some state boards are funded by the fines they impose,
  others are not reimbursed for any costs related to the enforcement of counseling requirements, and even
  have limited funding to disseminate educational information about counseling.

  Economicsof PharmacyPractice

  On page 6, the drafI report lists “Economics of Pharmacy Pqctice” as one of the obstacles state phar­
  macy boards identified as impediments to patient counseling. This includes “limited reimbursement for
  counseling services” and “lack of owners’commitment to counseling.” ASHP and its members agree
  with both of these observations.

 In today’smarketplace, pharmacists are expected to increase the number of prescriptions they till and
 patients they serve while simultaneously cutting costs and, in many cases, staff This leads to patients
 equating the quality of pharmaceutical care and services with the quick delivery of prescriptions, which
 further lowers the priority of counseling as a service that can and should be provided by pharmacists. If
 the numbers cited in the draft report are correct - that as much as $100 billion a year is added to health-
 care costs due to patients misusing drugs and not receiving intended therapy’ - some consideration must
 be given to increasing insurance carriers’and other payers’ (e.g., government) motivation to pay more at
 the pharmacy counseling level to encourage compliance with medication therapy and thereby reduce the
 overall cost of providing health care.

 ASHP has received some interesting comments regarding what the draft report calls “lack of owners’
 commitment to wunseling.” In Endnote 28 (page C-4), the draft report states that “owners and managers
 of pharmacies,particularly large, corporate chainphatmacies, express considerable concern that without
 reimbursement for cognitive services offered by pharmacists, oral counseling could have undesirable
 financial effects on their operations.” ASHP members who provided us with comments on the Executive
 Summary of the draft report, while agreeing that areimbursement mechanism should be established for
 cognitive services, noted that a major impediment to proper pharmacist involvement in patient medica­
 tion education is the attitude of non-pharmacist owners of pharmacies, particularly chain store owners,
 who have little interest in promoting counseling activities that may decrease the volume of prescriptions
 dispensed.

 Some ASHP members contend that the reason some state pharmacy boards do not enforce counseling
 laws is because these boards have members who represent certain corporate interests that resist efforts at
 stronger enforcement. They believe that this situation will not change until boards are restructured to


         ‘Some minor corrections need to be made to the draft report   Page 1 of the report correctly cites the
estimatedcosts as S 100 billion a year. Page i of the Executive Summary incorrectly states the cost as %100 million a
year. The date of the source for this estimate - an article in the Journal of the American Medical Association - is
cited incorrectly in Endnote 2 (page C- 1 of the report) as June 2 1, 1996; the article actually appeared in JAM4 on
June 21, 1995.
     Ms. June Gibbs Brown 

     July 10, 1997 

     Page 4              :



     provide more input from practitioner pharmacists and consumers. One member noted that “economic 

     reality places an unfair burden on a pharmacist who may choose to question company policy.... Proper 

     counseling will not become universal or even widespread until the laws are changed to place sanctions 

     on pharmacy owuers who do not require their employed pharmacists to counsel patients.” ‘Ihe wnsensus 

     is that ways should be found to fine and discipline corporate owners as well as individual pharmacists for 

     not complying with patient counseling laws. 


     LimitedPatientDemand

     On page 7, the draft report lists “Limited Patient Demand” as another obstacle identified as an impedi­
     ment to patient counseling. ASHP believes that this is more of a perception than a reality. Demand
     should not be a barrier to counseling. Federal regulations and state laws require that pharmacists offer to
     counsel patients, not that the patients should ask Pharmacists are often told by patients that they prefer
     to go to particular pharmacies because of theprinted material the pharmacists provide there. Personal
     discussions with pharmacists could have an even greater impact on patient satisfaction.
-z
*
     Counseling must be a part of the prescription process and not a separate task performed by the phar­
     macist. While offering counseling as an “extra”service requiring additional time might be discouraging
     to some, our experience indicates that patients will spend the time needed for counseling if it is built into
     the process and is routinely performed. Clearly, patients require oral and written reinforcements to
     assure safe use and compliance with the prescribed drug regimen.

     RECOMMENDATIONS SECTION (Pages 8-9 of the Draft Report)

     Recommendations Directed to the Food and Drug Administration

     On page 8, the draft report recommendsthat the FDA collaborate with state boards ofpharmacy to
     collect survey data - particularly through “shopping”visits - “to determine the extent and type of wun­
     seling being offered to patients.” While ASHP agrees that “shopping”visits may be helpful indicators of
     the amount of counseling that is provided (or if it is even offered), this is only one approach to fact­
     fmding, and it is a labor-intensive and costly approach. Other survey methods should be considered,
     such as customer satisfaction surveys, which might be a better indicator of whether the patient has
     received any counseling at all, and whether the patient is pleased with the information provided by the
     pharmacist. Surveys could also be used to examine whether the pharmacy environment is appropriate for
     the interaction between pharmacists and patients, and they could identify and offer suggestionsto correct
     structural deficiencies and proceduresthat can improve the delivery of healthcare information.

     Recommendations Directed to the Health Care Financing Administration

     On page 8, the draft report recommends that the HCFA should “facilitate State efforts to enforce the
     Medicaid patient counseling mandate.” Unfortunately, it is likely that this “facilitation” .willbe largely
     ineffective unless pharmacists and state boards receive some type of economic incentive to comply with
     the federal mandate. One solution would be for HCFAto ensure that reimbursement for pharmacy
     services be adequate enough to cover counseling. The Inspector General’sfinal report needs to
      Ms. June Gibbs Brown 

      July 10, 1997 

      Page 5               .* 



     address the important issue of how to fund the initiatives it recommends. ASHP suggests,as an initial 

     phase, that HHS and HCFA measure the true costs of providing complete medication distribution and 

     education, and then assist in developing a plan to make the appropriate resources available. 


     On page 9, the draft report recommends that HCFA should play a “stimulative role” in convening the 

     national symposium on oral counseling by pharmacists recommended by the Action Planfor the 

     Provisionof UsefulPrescriptionMedicine Informationthat was approved by Secretary Shalala. As 

     noted above, ASHP and seven other organizations - the Academy of Managed Care Pharmacy, the 

     American Pharmaceutical Association, the American Society of Consultant Pharmacists, the National 

     Community Pharmacists Association, the National Association of Boards of Pharmacy, the National 

     Association of Chain Drug Stores, and the Pharmaceutical Care Management Association - are spon­

     soring this symposium under the auspices of the Center on Drugs and Public Policy, University of 

     Maryland School of Pharmacy. Most of the constructive work of the symposium, which is scheduled to 

     be held on September 19-21,1997, will be conducted through small group workshops that will address 

     three major issues: consumers, pharmacy practice, and compensation. The goal of the symposium is to 

     develop a wmmon set of specific strategic plans for action that can be implemented by pharmacists to 

     provide effective oral counseling to consumers. The sponsoring organizations plan to invite HCFA 

     representatives to participate in the symposium on various levels. 


     ASHP looks forward to working with the Department of Health and Human Services, the Food and Drug
     Administration, the Heaith Care Financing Administration, and private-sector pharmacy organizations to
     address the concerns raised in the Inspector General’sdraft report Our Affiliated State Chapters are
     prepared to work with their boards of pharmacy on this issue. Please call us if you have any questions
     about our comments, and we can discuss a further role that national and state professional pharmacy
..   organizations may play in ensuring compliance with this important practice issue.

     Sincerely,

                                                    _ ..



     Executive Vice President

     q:\gcs\counsei.bm:sc

     Enclosures

     CC:       Board of Directors
      G-103




    ASHPGuidelinesonPhktiaGtXtitiductedPtitiknt
    EducationandCounseling
    Am J Health-Syst F’twm. 1997: 34~4314


                                                                MHP b&eves these patient eduutionnd        counxl­
        Providing pharmaceutical axe entails accepting re­   lng guidelines are appliable in all practice sett@s­
    sponsibUity for patients’ pharmacothenpeudc out-         &@dfng acute lnpatimt care, ambulatory are, home
    comes. Pharmacists can contribute to positive out-       arc, and long-tam -whetha            the sctUngs are
    comes by educating and counAlng patients to prepare      associated with Integrated health systems or managtd
    and motivate them to follow their pharmacotherapeu­      care oganlzafions or are frestandlng. Ike guidelines
5   tic regimens and monitoring plans. Ihe purpose of this   may need to be adapted; for example, for use in tele­
    document is to help pharmadsts provide effective p­      phonecounseiingor fcucounsellngfamifymcmbersor
    tlent educationand courwling.                            are@vas instead    of prtlcm.Patient    cduatton and
        In work@ with individual patienti, patient groups,   cuunsd@usually~atthetlmepresa@lonsare
    families, and caregivers, pharmacists should approach    dispens&utmayal4okprovided&sr#purtesav­
    cducadon and counseling as interrelated activities.      ke.lhetechniquesandtheamttntshouldkad@sted
    ASHPbelt-       phannadsts should educate and counsei    tomeathespedfIcneedsd&hepatkntandtocompty
    ail patients to the extant pordble, going beyond the     withthepoUdamdfxoc&msof’the~sctting.
    minImum rquhments of laws and regulations: simply        Inh4thsystems.othetkaithazeteamwmkrs
    offering to counsel k Inconsistent with phaxmadsts’      shareInthere3ponsihiUtytoOte8ndcuunsclpa-
    rqonsiitles.      In pharmaceutical care, pharmadsts     tlam 83spedfled In the p8tknU are plans.
    should encourage patients to seek education and coun­
    seling and should eliminate barriers to provUng it
        Rnmudss should also seek opportunities to pan&i-        Thehumanandeconomicco nsqueMsofinappco­
    pate in h&h-system patlaWctucatlon programs and to       prlate mzdkatioa use bavv been the subject of profes­
    supporttheeduMonaleffor&ofotherhealthareteam             *tiplwc=Jooogrmionrl             -foralorc
    member% phumrdm should crollabom with otha               thantwodeade%‘-‘Lackofsuffid~thwmkdgeabout
    health axe team men&as, as rppmprlate, to detemUne       thdrhealthpmbIemsmdmediatbasbonecauseof
    whatspdecinfotmatkmandcumMngarerqulzedin                 pucnu nonadheraKe to uldt lJhmmmhmpeutic
    cadl p8lialt arc sltuatIon. A cootd&uted effott 8morl&   regimens and monttodng pb         nithout �dquate
    he&h are team membQI will enhance patients’ adha­        hmwIedge~p8tlalt8 amot be eecuve pt.nas            ln
    ence to pharmacotherapeutlc f@nens, monitoring of        managingthdrowncaze.Tl2epharmacyprofessionhas
    drug effects, and feedback to the health system.         acceptedfcsponsibUltyforpmvidingpatknt&ucat&n
ASHP Reports Patient education and       counseling

and counseling in the context of pharmaceutical care to          environment       conducive to patient involvement,
improve patient adherence and reduce medication-relat­           learning, and acceptance-one       that supports pharma­
ed problems.69                                                   cists’ efforts to establish caring relationships with pa­
    Concerns about improper medication use contributed           tients. Individual patients, groups, families, or caregiv­
to the provision in the Omnibus Budget Reconciliation            ers should perceive the counseling environment           as
Act of 1990 (OBRA‘90)that mandated an offer to counsel           comfortable, confidential, and safe.
Medicaid outpatients about prescription medications.                 Education and counseling are most effective when
Subsequently, states enacted legislation that generally          conducted in a room or space that ensures privacy and
extends the-offer-tcKounse1 requirement to’outpatients           opportunity     to engage in confidential communica­
not cover& by Medicaid. Future couit cases may estab­            tion. If such an isolated space is not available, a com­
lish that pharmacists, in part because of changing laws,         mon area can be restructured to maximize visual and
have a public duty to warn patients of adverse effects and       auditory privacy from other patients or staff. Patients,
potential interactions of medications. The result could be       including those who are disabled, should have easy
increased liability for pharmacists who fail to educate          access and seating. Space and seating should be ade­
and counsel their patients or who do so incorrectly or           quate for family members or caregiven. The design
incomplete1y.*0                                                  and placement of desks and counters should minimize
                                                                 barriers to communication. Distractions and tnterrup
Pharmacists’ knowledge and skills                                tions should be few, so that patients and pharmacists
    In addition to a current knowledge of pharmacother­          can have each other’s undivided attention.
apy, pharmacists need to have the knowledge and skills               The‘hnvironment should be equipped with appro­
to provide effective and accurate patient education and          priate learning aids, e.g., graphics, anatomical models,
counseling. They should know about their patients’ ctd­          medication      administration devices, memory aids,
tures, especially health and illness beliefs, attitudes, and     written material, and audiovisual resources.
practices. They should be aware of patients’ feelings
toward the health system and views of their own roles            Pharmacist and patient roles
and responsibilities for decision-making and for manag­              Pharmacists and patients bring to education and
ing their care.”                                                 counseling sessions their own perceptions of their
    Effective, open-ended questioning and active listen­         roles and responsibilities. For the experience to be
ing are essential skiils for obtaining information from          effective, the pharmacist and patient need to come to
and sharing information with patients. Pharmacists have          a common understanding about their respective roles
to adapt messages to fit patients’ language skills and           and responsibilities. It may be necessary to clarify for
primary languages, through the use of teaching aids,             patients that pharmacists have an appropriate and
interpreters, or cultural guides If necessary. Pharmacists       important role in providing education and counseling.
also need to observe and interpret the nonverbal messag­         Patients should be encouraged to be active partici­
es (e.g., eye contact, facial expressions, body movements,       pants.
vocal characteristics) patients give during education and           The pharmacist’s role is to verify that patients have
counseling sessions.L2                                           sufficient understanding, knowledge, and skill to fol­
    Assessing a patient’s cognitive abilities, learning style,   low their pharmacotherapeutic regimens and moni­
and sensory and ph$%%l status enables the pharmacist             toring plans. Pharmacists should also seek ways to
to adapt information and educational methods to meet             motivate patients to learn about their treatment and to
the patient’s needs. A patient may learn best by hearing         be active partners in their care. Patients’ role is to
spoken instructions; by seeing a diagram, picture, or            adhere to their pharmacotherapeutic regimens, moni­
model; or by directly handling medications and adminis­          tor for drug effects, and report their experiences to
tration devices. A patient may lack the visual acuity to         pharmacists or other members of their health care
read Iabels on presaiption~~~ntainers, markings on sy­           teams.*zls Optimally, the patient’s role should include
ringes, or written handout material. A patient may be            seeking information and presenting concerns that
unable to hear oral instructions or may lack sufficient          may make adherence difficult.
motor skills to open a child-resistant container.                    Depending on the health system’s policies and pro­
    Lnaddition to assessing whether patients knowhow to          cedures, its use of protocols or clinical care plans, and
use their medications, pharmacists should attempt to             its credentialing of providers, pharmacists may also
understand patients’ attitudes and potential behaviors           have disease management roles and responsibilities
concerning medication use. The pharmacist needs to               for specified categories of patients. This expands phar­
determine whether a patient is willing to use a medica­          macists’ relationships with patients and the content of
tion and whether he or she intends to do 50.‘~.~’                education and counseling sessions.

Environment                                                      Process steps
  Education and counseling should take place in an                 Steps in the patient education and counseling      proc-


432 Am I Health-Syst Pharm Vol 54 Feb 15 1997
                                                                            Patient education and counseling ASHP Retorts


    ess will vary according to the health system’s policies                  intended to cure a disease, eliminate or reduce
    and procedures, environment,     and practice setting.                   symptoms, arrest or slow the disease process, or
    Generally, the following steps are,appropriate for pa­                   prevent the disease or a symptom.
    tients receiving new medications or returning for re-               3. 	me medication’s expected onset of action and what
    fillsi2’21:                                                              to do if the action does not occur.
                                                                        4. 	me medication’s route, dosage form, dosage, and
       1. Establish caring relationships with patients as ap­                administration schedule (including duration of ther­
          propriate to the practice setting and stage in the                 apy).
          patient’s health care management. introduce your-             5. 	Directions for preparing and using or administering
          self as a pharmacist, explain the. purpose and ex-.                the medication. This may tnclude adaptation to fit
          petted length of the sessions, and obtain the pa­                  patienti’ lifestyles or work enviionments.         -
          tient’s agreement to participate. Determine the pa­           6. Adion to be taken in case of a missed dose.
          tient’s primary spoken language.                              7. 	Precautions to be observed during the medication’s
      2. Assess the patient’s knowledge about his or her                     use or administration and the medication’s poten­
          health problems and medications, physical and                      tial risks in relation to benefits. For injectable med­
          mental capability to use the medications appropri­                 ications and administration devices, concern about
          ately, and attitude toward the health problems and                 latex allergy may be discussed.
          medications. Ask open-ended questions about each              8. 	Potential common and severe adverse effects that
          medication’s purpose and what the patient expects,                 may occur, actions to prevent or minimize their
          and ask the patient to describe or show how he or                  occurrence, and actions to take if they occur, in­
          she wilt use the medication.                                       cluding notifying the prescriber, pharmacist, or
          Patients returning for refill medications should be                other h-ealth care provider.
          asked to describe or show how they have been using            9. 	Techniques for self-monitoring of the phannaco­
          their medications. They should also be asked to                    therapy.
          describe any problems, concerns, or uncertainties            10. Potential drugdrug (including nonprescription),
                                                                             drug-food, and drugdisease interactions or con­
     -z they are experiencing with their medications.                        traindications.
     +-3. Provide information orally and use visual aids or
          demonstrations to fill patients’ gaps in knowledge           Il. 	 The medication’s relationships to radiologic and
          and understanding. Open the medication contain­                    laboratory procedures (e.g., timing of doses and
          ers to show patients the colors, sizes, shapes, and                potential interferences with interpretation of re­
          markings on oral solids. For oral liquids and inject­              suks).
          ables. show patients the dosage marks on measuring           12. Prescription refill authorizations and the process
          devices. Demonstrate the assembly and use of ad-                   for obtaining refills.
          ministration devices such as nasal and oral inhalers.        13. Instructions for 24-hour access to a pharmacist.
          As a supplement to face-to-face oral communica­              14. Proper storage of the medication.
          tion, provide written handouts to help the patient           IS. 	Proper disposal of contaminated or discontinued
          recall the information.                                            medications and used administration devices.
.                                                                      16. Any other information unique to an individual
          If a patient is experiencing problems with his or her              patient or medication.
          medications, gather appropriate data and assess the
          problems. Then adjust the pharmacotherapeutic                 These points are applicable to both prescription and
          regimens according to protocols or notify the pre­        nonprescription          medications. Pharmacists should
          scribers.                                                 counsel patients in the proper selection of nonpre­
       4. Verify patients’ knowledge and understanding of           scription medications.
          medication use. Ask patients to describe or show              Additional content may be appropriate when phar­
          how they will use their medications and identify
          their effects. Observe patients’ medication-use. ca­      macists have authorized responsibilities in collabora­
          pability and accuracy and attitudes toward follow­        tive disease management for specified categories of
          ing their pharmacotherapeutic regimens and mon­           patients. Depending on the patient’s disease manage­
          itoring plans.                                            ment or clinical care plan, the following may be cov­
                                                                    ered:
    Content
                                                                       1. The disease state: whether it is acute or chronic and
        The content of an educatioiand       counseling session            its prevention, transmission, progression, and re­
    may include the information listed below,as appropri­                  currence.
    ate for each patient’s pharmacotherapeutic         regimen         2. 	Expected effects of the disease on the patient’s
    and monitoring plan .6.9.mThe decision to discuss spe­                 normal dally living.
    cific pharmacotherapeutic       information with an indi­          3. 	Recognition and monitoring of disease complica­
    vidual patient must be based on the pharmacist’s                       tions.
    professional judgment.
                                                                    Documentation
        1. The medication’s trade name, generic name, com­
            mon synonym, or other descriptive name(s) and,              Pharmacists should document education and coun­
            when appropriate, its therapeutic class and efficacy.   seling in patients’ permanent medical records as con­
        2. 	The medication’s use and expected benefits and          sistent with the patients’ care plans, the health sys­
            action. This may include whether the medication is      tem’s policies and procedures, and applicable state and


                                                                            Vol 54 Feb 15 1997 Am J Health-Syst Pharm 433
     ASHP Rep0rt.s Patient education and counseling


     federal laws. When pharmacists do not have access to                 7.  Hepier CD, Strand IA. Opportunitiesand responsibilities in
                                                                              pharmaceuticai care. Am I Hosp Pham. 1990; 47:533-U.
     patients’ medical records, education and counseling                   8. Hatoum KT, Hutchinson RA, kmbert 5L OBRA90: patient
     may be documented .in the pharmacy’s patient pro-                        counseling-enhancing     patient outcomes. US Phurm. 1993;
     files, on the medication orderor prescription form, or                   180an):76-86.
                                                                           9. OBRA‘90: a practical guide to cffccting pharmaceutical care.
     on a specially designed counseling record.
                                                                              Washington, DC: American Pharmaceutical Association;
         The pharmacist should record (1) that counseling                     1994.
     was offered and was accepted and provided or refused                 10. LynnNJ, Kamm RL Avoiding liability problems. Am FVmmr.
     and (2) the pharmacist’s perceived level of the pa­                      1995; NS3S(Dec):14-22.
     tient’s understanding? As:appropriate, the. .content                 11. Henicr RX.BoyceRW. Doescounselingi.FproveCompliance?
                                                                              Am Ph&m. 1995;NS3Stkp):l l-2.                       -
     should be documented (for example; counseling about                  12. Foster SL Smith E5, Seybold MR.Advanced counseling tech­
     fooddrug interactidns). All documentation should be                      niques: integratingassessmentand intervention. Am Phmm.
     safeguarded to respect patient confidentiality and pri­                  1995: NS3S(Oct):4@8.
                                                                          13. 5ond WS, Hussar DA Detection methods and strategies for
     vacy and to comply with applicable state and federal                     improving medication compliance. Am I Hasp Phana 1991;
     laws.lO                                                                  48:197%38.
                                                                          14. Felkey 5G. Adherence screening and monitoring. Am fhunn.
     Roferoncos
                                                                              19%: NSZfJul):42-51.
                                                                          15. Herrier RN, 5oyce RW. &tabUshing an active patient partner-
      1. Smith MC. Socialbarriers to rational drug therapy.   Am I Hasp       ship. Am Phann. 1995; NuSMpr):4&57.
          Phum. 1972; 29:121-7.                                           16. Boyce RW, Herrier RN, Gardner M. Pharmacist-patient con­
      2. Prioritiesand approachesfor improvtngprescriptton medi­              suitation program, unit I: an Interactive approach to verify
          dne use by older Americans. Washington, DC: National                oatient understandinn. New York PffzerInc.: 1991.
          Council on Patient Information and Education: 1987.             17. ‘Phamiacist-patient ccksultation pqram, unit II: counseling
      3. 	Manasse HRJr. Medication use in an imperfect wotld: drug            patients in challenging situations. New York Pfizer Inc.:
          misadventuring as an issue of public policy, part 1.Am 1Hosp        1993. 

         Pharm. 1989; 4632944.                                            18. Pharmacist-patientconsultationprogram,unit III:counseling 

      4. 	Manasse HRJr. Medication use in an Imperfect world: drug            to enhance compliance.NewYork Pfizer fnc; 1995. 

‘=        misadventutig as an issue of public policy, part 2. elm 1Hasp   19. BoyceRW,Herder R?LObtainingand usingpatient data. Am 

-*        Phomr. 1989;46:1141-x.                                              Phnrm. 1991: NS3l(Jul):6S-70. 

      5. JohnsonjA, Bootman JL Drug-related morbidity and mortali­        20. Herrier RN, Boyce RW. Communicating risk to patients. Am 

          ty: a cost-f-illness model. Arch Intan Med. 1995; 155:1949-         Phutm. 1995: NUSfJun):12-4. 

          56.                                                             21. APM special report: medication administration problem 

      6. 	Summary of the final repoti of the Scope of Pharmacy Prac­          solving in ambulatory care. Washington, DC: American Phar­

          tice Project. Am / HospPhamr. 1994; 51:2179-82.                     maceutical Association: 1994. 





                            - -- .




     434 Am J Health-Syst Pharm Voi 54 Feb 15 1997
                                  ASHP Leadership Agenda, 1997-98
                                         Rationale and Implementation

       Increase awareness among the public in general and among health-system decision-makers
                      specifically about the vital patient care role of pharmacists.

Rationale.A new mission for pharmacists-helping people make the best use of medications-has been declared, but
pharmacists need public understanding and support in order to achieve widespread acceptance and recognition for this
role. Decision-makers in heaitlt systems do not fully apprekie   the value of pharmacists in patient care and in the
continuiq of care. There is a risk in today’s cost-cutting c&ronment that some health-system executives may
compromise the quality of patient care by simply cunailing their employment of pharmacists without seeking ways for
pharmacists to help improve patient outcomes while lowering costs.

Implementation. ASHP has expanded its efforts to increase the general public’s awareness of the value of health-
system pharmacists. An aggressive. proactive public relations program is being developed with the assistance of a
communications fmn and with the involvement of affiliated state societies. In 1996-97. ASHP launched a
communicationscampaign to increase the awareness of health-system decision-makers about the vital patient care role
of pharmacists. One thrust of the campaign. which will continue in 1997-98, is communicating directly with hcalth­
s)stem esecutives and another is developing tools that individual ASHY members can use to help them demonstrate the
\rluc of pharmacists in their practice settings.



                  Foster expanded efforts b? health systems to prevent medication errors
                                    and other drug-related problems.

Rationale.The safety of medication use is a growing public concern as reflected by the news media and by the
scientific and professional literature. In the health-system environment, responsibility for the safety of the medication-
use process is shared by many persons in addition to pharmacists. including physicians. nurses. administrators, various
technical personnel. and patients. Health systems are not consistently applying proven methods for reducing
medication errors.-By virtue of their education and training, pharmacists are in a position to lead efforts within health
systems to assess and improve the safety of medication use. Highly visible activity by health-system pharmacists on
this issue will enhance public awareness of the patient care role of pharmacists.

Implementation.ASHP will build ou its previous work and launch new initiatives lo foster safe medication use in
health systems. in doing so, it will collaborate with the ASHP Research and Education Foundation and other health
professions and organizations.
                                  Accelerate efforts to help health-system pharmacists
                                      setie patients across the continuum of care.

     Rationale. The ongoing formation of integrated health care delivery systems will require ASHP members to be well
     equipped to serve the needs of patients in all components of integrated systems and to foster continuity of care across
     those components. The demand for health-system pharmacists in certain areas such as ambulatory care may grow
     faster than in acute care, presenting new opportunities for pharmacists to improve patient outcomes. Health systems
     will be giving more atteat+n to disease prevention and health promotion,
                                                                           .     activities that are relatively underdeveloped
                                                                                                                 _.
     in pharmacy education and practice.

     Implementation. ASHP will identify and begin development of initiatives to ensure that pharmacists are well
     equipped for their evolving roles in all components of health systems. including ambulatory care, chronic care, long-
     term care, disease prevention, and health promotion. These initiatives will cover pharmacy management and leadership
     as well as clinical practice.



                   Build strategic partnerships that will advance the health-system              pharmacist’s
                                          role in the medication-use process.
                                                                             .

     Rationale. The providers of health care setvices will continue to consolidate tbrougb the development of integrated
     delivery systems that cover all components of health care. In this environment. ASHY must actively seek new types of
     collaborative relationships that will create opportunities for advancing the health-system pharmacist’s role in
=*   coordinating the medication-use process as well as expanding AMP’s capacity to serve members.

     Implementation. AU-P has identified existing and desirable partnerships (organizational. interdisciplinary. business)
     that offer strategic possibilities and has determined which offer the best potential for strategic alliances. ASHP is
     systematically pursuing the establishment of strong working relationships with several key groups. The top priorities
     are medical organizations. managed care provider organizations. and standard-setting and performance-measurement
     organizations in health care.




                                                  ASHP Mission        Statement

                     Themission of ASHP is to represent-its members and to provide leadership that
                     will enable pharmacists in organized health-care settings to

                         (1)   extend pharmaceutical care focused on achieving positive patient
                               outcomes through drug therapy;
                         (2)   provide services that foster the efficacy, safety, and cost-effectiveness of
                               drug use;
                         (3)   contribute to programs and services that emphasize the health needs of
                               the public and the prevention of disease; and
                         (4)   promote pharmacyas an essential component of the health-care team.

                     --Approved by the ASHP House of Delegates. June 3.1992




                                                                  4
                             APPENDIX                   D

                                    ENDNOTES
1. For studies addressing the quality of care impacts associated with mismedications, see 

A.J. Wood and J.A. Oates, “Adverse Reactions to Drugs,” in R. Petersdorf et al., 

Harrison’s Principles of InternalMedicine, 12th ed. (New York: McGraw Hill, 1991), 

373-9; Stephen H. Long, “Prescription Drugs and the Elderly: Issues and Options, n 

HealthA@irs 158 (Spring II, 1994), 157-74;U.S. General Accounting Office, 

PrescriptionDrugs and the Elderly: Many StillReceive PotentiallyHarm@ Drugs Despite 

Recent Improvements,GAO/HEHS-95-152, July 1995; Jeffrey A. Johnson et al., “Drug-

Related Morbidity and Mortality: A Cost-of-Illness Model,” Archives of Internal 

Medicine, 155 (October 9, 1995), 1949-56; Adverse Drug Reactionsin the Elderly: 

Hearing before the Special Committeeon Aging, United States Senate, 104th Cong., 2nd 

Sess., March 28, 1996; and Robert McCarthy, “Patient Compliance: Strategies to 

Overcome a Costly Problem,” Medical UtilizationManagement24 (July 11, 1996) 14, 5-

8. 


2. 	 This assessment was made by Paul Rogers, chair of the National Conference on 

Prescription Medicine Information and Education. See “FDA Pushes for Prescription 

Drug Information, ” Journal of the American Medical Association(273) 23, June 21, 1995, 

1815-16. The FDA Commissioner has estimated that failure to get consumers adequate 

information about prescription drugs costs about $20 billion a year in direct costs 

associated with patients who have not adhered to a prescribed drug regimen and about $80 

billion in indirect costs such as those associated with days lost from work. See Philip J. 

Hilts, “F.D.A. Seeks Clear Information Inserts with Prescription Drugs,” New York 

Times, August 24, 1995, A21. 


3. On the basis of a review of 50 studies, the FDA concluded that noncompliance rates 

averaged from 30 to 50 percent. See “Prescription Drug Product Labeling: Medication 

Guide Requirements; Proposed Rule,” Department of Health and Human Services, Food 

and Drug Administration, Federal Register, 21 CFR Part 201, wt al., August 24, 1995, 

44186. 


4. See, for instance, Timothy S. Lesar, et al., “Factors Related to Errors in Medication 

Prescribing,” Journal of the American Medical Association,(277) 4, January 22129, 1997, 

312-17. 


5. 	 See Office of Inspector General, “The Clinical Role of the Community Pharmacist,” 

OEI-01-89-89160, November 1990. 


6. The American Pharmaceutical Association and other pharmacy professional 

organizations are encouraging the development of “pharmaceutical care” - whereby 

pharmacists play an important role in counseling patients. Professional medical 

associations support pharmacist roles in helping ensure that patients understand and adhere 



                                           D-l
to drug therapy prescribed by physicians. However, they tend to be wary of more activist
roles by community pharmacists. This was most apparent in the minority report of the
American Medical Association, the American Academy of Family Physicians, and the
American College of Obstetricians and Gynecologists to the private-sector action plan
recently approved by the Secretary of Health and Human Services (see appendix B). In
their comments, they express concern that pharmacy organizations have sought to use the
action plan “as a mechanism to legitimize the role of the pharmacist as a primary
counselor of patients about prescription drugs.” “It is,” they add, “the unwavering view
of the physician organizations that this is inappropriate as it distorts the reality of actual
practice. ”


7. The Omnibus Budget Reconciliation Act of 1990 (P.L. 101-508).

8. The National Association of Boards of Pharmacy, Consumer Patient Counseling
Survey, 1996.

9. 	 New York City Office of the Public Advocate, Prescription for Danger: Drugstore
Counseling Routinely Ignored, 1996.

10. U.S. News and World Report (121) 8, August 26, 1996, 46-53. At about the same
time, a television news show ran a major segment on the same topic.

11. Nicholas John Cavuto, et al., Letter to the Editor, “Pharmacies and Prevention of
Potentially Fatal Drug Interactions,” Journ.al of the American Medical Association (275)
14, April 10, 1996, 1086-7.

12. We sent the survey to the 50 State pharmacy boards and the pharmacy board of the
District of Columbia.

13. Three boards did not respond to our survey: Maine, Kansas, and District of
Columbia. Two, Michigan and South Carolina, suggested that we contact the State
Medicaid agency to discuss enforcement of the Medicaid counseling law. In those two
cases, we did conduct discussions with Medicaid agency representatives, but we regarded
those two States as nonrespondents for our survey of pharmacy boards.

 14. California State Board of Pharmacy, Department of Consumer Affairs, Fall 1995.

15. Although this and other such outreach efforts by boards would provide pharmacists
with opportunities to obtain continuing education credits, only 3 of 46 reporting boards
indicated that their State had a continuing education requirement for pharmacists that was
specifically intended to help them conduct patient counseling.

16. During the past year, 39 of 46 reporting boards (85 percent) conducted on-site visits
of pharmacies. In these States, the median percentage of pharmacies visited was 80
percent.




                                             D-2 

17. Our reference here and throughout the report is to boards responding to a particular
question. Thus, while 46 boards responded to some or all of our survey, the number
responding to any particular question varies slightly.

18. One board official commented as follows: It is virtually impossible to make a “paper
case. ” Each disciplinary action requires more than one undercover shopping visit and is
very labor intensive. This is a problem for an agency that is short on personnel.”

19. One board noted that several shopping efforts have been undertaken in the past year
and that in almost all cases pharmacists are complying with the OBRA 1990 legislation.
Two other boards were less positive in describing their results. One noted an overall
compliance rate of 70 percent. One simply noted that the results of shopping visits to
three dozen pharmacies “were not satisfactory.” He noted that they found that
pharmacists tend to skip counseling on patients they didn’t know.

20. 	 Even though the investigation may involve “shopping,” the complaint/concern    leading
to it does not necessarily involve a possible counseling violation.

21. Pharmacy boards also enforce patient counseling laws through their response to
complaints. In our survey, we asked how often such complaints were related to patient
counseling. We present the responses in appendix A. However, upon follow-up
discussions with a number of board officials we determined that boards had widely
varying interpretations of “counseling-related;” thus any generalizations on this matter
would be suspect. It may be pertinent to note though that among 37 reporting boards, 28
(76 percent) estimated that consumers were the primary source of complaints involving
possible violations of patient counseling requirements.

22. 	 The economic barriers to counseling were also emphasized in a prior Office of
Inspector General study. See OEI-89-89160, “The Clinical Role of the Community
Pharmacist,” November 1990.



23. 	 A few officials, however, suggested that the “attitudes” of pharmacists also
contributed to a lack of counseling.

24. 	 This perception has been documented in many prior studies over many years. For
instance, a 1982 Schering Laboratory study found that among 15 possible reasons offered
for choosing a pharmacy, consumers they surveyed ranked the following as the first
reason: “Pharmacist fills prescriptions promptly. ” See Schering laboratories, “Pharmacist
Perceptions vs. Consumer Realities: Updating the View from Both Sides of the Counter,”
The Schering Report IV, Kenilworth, New Jersey, 1982.

25. Here, and throughout the text, we use the term “major” to describe responses
identified by respondents as “significant” or “very significant.”




                                            D-3 

26. 	 For instance,    an October 1996 verdict a South Carolina case resulted in a $16 million 

settlement against    a chain pharmacy for an improperly filled prescription leading to severe 

brain damage for      a child. (Court of Common Pleas, York County, South Carolina. 

Docket Numbers:       9%CP-46-405 and 95-CP-46-406.) 


27. The national health promotion and disease prevention objectives issued by the 

Department of Health and Human Services in its report entitled, “Healthy People 2oO0,” 

calls for a commitment to written and oral counseling. Objective 12.8, added in 1995, 

states: “Increase to at least 75 percent the proportion of people who receive useful 

information verbally and in writing for new prescriptions from prescribers and 

dispensers. ” 


28. 	 Physician groups, as we have noted, express considerable concern that oral 

counseling initiatives could lead to undesirable intrusions into the practice of medicine. 

Similarly, owners and managers of pharmacies, particularly large, corporate chain 

pharmacies, express considerable concern that without reimbursement for cognitive 

services offered by pharmacists, oral counseling could have undesirable financial effects 

on their operations. The HCFA and pharmacy associations could help address these 

concerns by showcasing ways in which pharmacists and physicians are working together in 

some community settings. Similarly, they could help draw attention to initiatives such as 

the one in Wisconsin where the Medicaid program is reimbursing pharmacists for 

“pharmaceutical care” at varied levels, depending on the extent of care being provided to 

patients. 





                                               D-4 

